U.S. DEPARTMENT OF TRANSPORTATION | OFFICE OF INSPECTOR GENERAL



semiannual report
                                          TO C O N G R E S S




                                 www.oig.dot.gov
  APRIL 1, 2013 –
                                 1200 New Jersey Avenue, SE
  SEPTEMBER 30, 2013
                                 Washington, DC 20590
COVER PHOTO: “CURVING HIGHWAY BRIDGES” BY MARION VANCAUWENBERGH / CC BY-NC-SA 2.0
TABLE OF CONTENTS



FROM THE INSPECTOR GENERAL .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 3

AUDITS AND INVESTIGATIONS  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 7
                Aviation  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 7
                In Focus: Maintaining a Safe and Efficient National Airspace System  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 17
                Highway and Transit . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
                In Focus: Keeping Unsafe Commercial Carriers Off the Nation’s Highways  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 37
                Rail, Maritime, Hazmat Transport, and Economic Analysis .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 39
                Financial and Information Technology .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 45
                Acquisition and Procurement  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 49
                Departmentwide Issues  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 55

OTHER ACCOMPLISHMENTS .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 57

WORK PLANNED AND IN PROGRESS .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 61
                Aviation  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 61
                Highway and Transit . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 69
                Rail, Maritime, Hazmat Transport, and Economic Analysis .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 75
                Financial and Information Technology .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 79
                Acquisition and Procurement  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 83

STATISTICAL PERFORMANCE DATA .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 87
                Summary of Performance  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 87
                Audits .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 88
                Investigations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 109

PEER REVIEW .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 115

MISSION AND ORGANIZATION .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 117

CONTACTS  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 118




                                                                                                                                                             Semiannual Report to Congress  |  1
2  |  From the Inspector General
                                                               FROM THE INSPECTOR GENERAL



                                                               I am pleased to present the Department of Transportation (DOT), Office of Inspector General’s (OIG)
                                                               Semiannual Report to Congress for the second half of fiscal year 2013. Our audits and investigations support
                                                               the Department’s strategic goals of safety, livable communities, economic competiveness, environmental
                                                               sustainability, and state of good repair. Over the past 6 months, we issued 76 audit reports with a total of
                                                               215 recommendations, including financial recommendations totaling over $279.3 million. Our investigative
                                                               work resulted in 42 indictments, 33 convictions, and a total of more than $92.4 million in fines, restitutions,
                                                               recoveries, and cost avoidance.

                                                               Our aviation work this period continued to identify opportunities to enhance safety and achieve savings
                                                               through improved airspace management and industry oversight. Our reports highlighted shortcomings
                                                               in the Federal Aviation Administration’s (FAA) efforts to deploy an efficient and effective aviation safety
                                                               inspector workforce; implement a risk-based approach for overseeing the roughly 4,800 repair stations
                                                               worldwide that service U.S. air carriers; develop an acquisition strategy for terminal modernization that
                                                               keeps costs, schedules, and performance in check; and ensure controller training and scheduling practices
                                                               do not negatively impact controller performance and agency costs. We also remained committed to
                                                               protecting investments in FAA’s multibillion-dollar Next Generation Air Transportation System (NextGen) and
                                                               to ensuring the future viability of the National Airspace System. Our investigations continued to aggressively
                                                               pursue individuals who compromise aviation integrity and safety by falsifying aircraft maintenance logs and
                                                               airmen certifications, and illegally transporting hazardous materials.

                                                               Our highway and transit work also identified areas where action is needed to ensure safety while protecting
                                                               Federal investments. Our investigations targeted individuals intent on defrauding the Government out of
                                                               millions of dollars, including funding provided through the American Recovery and Reinvestment Act (ARRA)
“THE BRIDGE TO JEKYLL ISLAND” BY DOUG WALDRON / CC BY-SA 2.0




                                                               of 2009 and Federal Transit Administration (FTA) operating grants. Embezzlement, bribery, false claims,
                                                               billing schemes, and disadvantaged business enterprise (DBE) fraud diverted Federal dollars from legitimate
                                                               firms and degraded the quality of taxpayers’ investments. Our investigations also continued to provide
                                                               the evidence needed to prosecute commercial drivers who operate illegally under out-of-service orders.
                                                               Our highway and transit audits similarly found opportunities to enhance safety and oversight by effectively
                                                               implementing lessons learned from ARRA for overseeing projects’ compliance with Federal requirements
                                                               and the expenditure of remaining grant funds, as well as following through on plans to meet provisions of
                                                               the Moving Ahead for Progress in the 21st Century Act (MAP-21) for accelerating project delivery.

                                                               Our rail work identified concerns in the Federal Railroad Administration’s (FRA) efforts to establish rules for
                                                               improved railroad safety, as required by the Rail Safety Improvement Act of 2008, and provide adequate
                                                               oversight to ensure compliance with the rules. We also assessed Amtrak’s rolling 5-year financial plan and
                                                               found that the plan continues to lack information on key performance metrics intended to ensure the
                                                               railroad is improving its operating efficiency.




                                                                                                                                    Semiannual Report to Congress  |  3
The Maritime Administration’s (MARAD) administration of funds for modernizing the main seaport in
Anchorage, AK, also pointed to the need for improved stewardship. Developing and implementing a Port
Infrastructure Development Program—which Congress mandated in 2009—could provide a needed
framework for effectively overseeing ongoing and future port infrastructure projects, including those in
Hawaii and Guam.

Our hazmat transport investigations uncovered fraud schemes that created significant safety and
environmental hazards. In one case, our work compelled the owner of a chemical plant to plead guilty to
causing the death of an employee who was exposed to toxic levels of hydrogen sulfide. Investigations also
led to companies paying more than $82 million in settlement or restitution for violating Federal laws and
regulations related to handling, disposing, and transporting hazardous materials.

Our audits continue to identify significant vulnerabilities in DOT’s $3 billion information technology (IT)
portfolio. Ongoing security threats to the Department’s IT systems—including those that support DOT’s
common operating environment and FAA’s Civil Aviation Registry—continue to expose systems and data to
compromise. Our work also raised concerns about the Department’s compliance with requirements of the
Reducing Over-Classification Act and the use of purchase cards, which DOT employees charge hundreds of
millions of dollars to each year. Closing IT security gaps, protecting classified documents, and implementing
effective controls to prevent and detect wasteful and fraudulent purchases are critical for ensuring the
Nation’s transportation systems remain safe and for protecting Federal dollars from abuse.

Ensuring effective management of DOT’s acquisitions to maximize value and program performance remains
a top management challenge for the Department. Inadequate planning, lack of reliable cost estimates, and




  6 months
                            $
                                279.3M 92.4M
                            in financial
                            recommendations
                                                                               $
                                                                                in fines, restitution, recoveries,
                                                                                and cost avoidance




4  |  From the Inspector General
 noncompliance with Federal contracting requirements contributed to significant delays and cost increases
 in the Port of Anchorage project. Operating Administrations across DOT continue to accept greater cost
 and performance risk for its acquisitions by increasing its use of cost-reimbursement contracts—despite
 the risk and the Government’s call to decrease the use of these contracts. The Department’s oversight of
 its multibillion-dollar DBE Program also remains a concern. The program’s integrity depends in large part on
 systematic procedures to ensure only DBE-certified firms participate in the program and that legitimate DBEs
 succeed in the marketplace. However, our audits and investigations identified engineering, construction,
 trucking, and other firms—including some that had been suspended or debarred—that were incorrectly
 certified as DBEs. DBE cases currently represent about one-third of OIG active procurement and grant fraud
 investigations.

 Our work over the past 6 months continues to reflect our commitment to fully inform Congress, the
 Department, and the public of pressing transportation concerns and to aggressively pursue individuals who
 defraud the Government. I commend and thank our hard-working staff for their outstanding efforts and
 dedication to our critical mission. I would also like to thank Secretary Foxx for his leadership. I look forward
 to working with the Secretary, his team, and the modal administrators to provide Americans with a safe
 transportation system that meets the national objectives of general welfare, economic growth and stability,
 and security.




 Calvin L. Scovel III




76                            215                                   42                              33
audit reports                  recommendations                      indictments                     convictions
issued




                                                                      Semiannual Report to Congress  |  5
           OIG’S AVIATION WORK EMPHASIZES SAFETY AND ECONOMY THROUGH
           AUDITS OF AIR TRAFFIC CONTROL OPERATIONS, ACQUISITION AND
           MODERNIZATION OF ASSETS, PROGRAM OVERSIGHT, AND CUSTOMER
           SERVICE, AND THROUGH INVESTIGATIONS OF COUNTERFEIT AND
           SUBSTANDARD AIRCRAFT PARTS, FALSIFIED MAINTENANCE RECORDS, AND
           FRAUDULENT PILOT AND MECHANIC CERTIFICATIONS




6  |  Audits and Investigations
                                                           AUDITS AND INVESTIGATIONS
                                                           AVIATION
                                                           Audits

                                                           April 16, 2013                                             April 18, 2013
                                                           FAA’S PROGRESS AND CHALLENGES                              ARRA LESSONS LEARNED:
                                                           IN ADVANCING SAFETY OVERSIGHT                              OPPORTUNITIES EXIST FOR FAA TO
                                                           INITIATIVES                                                FURTHER IMPROVE ITS OVERSIGHT
                                                           Testimony Before the Senate Committee on
                                                                                                                      OF AIRPORT GRANT PAYMENTS
                                                           Commerce, Science, and Transportation                      Self-initiated
                                                           The Assistant Inspector General for Aviation               ARRA injected an unprecedented $1.1 billion into
                                                           testified on FAA’s efforts to enhance air                  FAA’s Airport Improvement Program (AIP) and
                                                           traffic operations, oversee repair stations and            established tight timeframes for distributing grant
                                                           manufacturers, and implement mandated safety               funds, emphasizing preference for projects that
                                                           requirements. The Assistant Inspector General              could be completed in 2 years. ARRA also called
                                                           noted that to reduce the risk of safety incidents          for an unprecedented level of oversight to prevent
                                                           such as air traffic controller operational errors, pilot   improper payments and misuse of Federal funds.
                                                           deviations, wildlife strikes, and runway incursions,       However, FAA’s oversight was insufficient to
                                                           FAA needs to refine its processes for collecting data      prevent or detect more than $1.4 million in ARRA
                                                           and analyzing root causes. In addition, he described       payments for ineligible or insufficiently documented
                                                           FAA’s challenges with establishing a risk-based            work. These improper payments occurred in part
                                                           oversight system for repair stations and aircraft          because FAA over-relies on grantees to ensure their
                                                           manufacturers, as well as effectively determining          payment requests are accurate and supported.
“MASSIVE A380 @EZE AIRPORT” BY ROGER SCHULTZ / CC BY 2.0




                                                           how many inspectors FAA needs and where. Finally,          In addition, FAA did not ensure that some airport
                                                           the Assistant Inspector General noted that despite         expenditures fully met ARRA and AIP requirements.
                                                           commendable progress on implementing key                   Shortfalls included allowing some grantees to
                                                           elements of the Airline Safety Act, FAA continues          (1) use ARRA funds to cover prior year work, (2)
                                                           to be challenged with meeting provisions for               inappropriately mix ARRA and AIP funds, (3) accept
                                                           improved pilot training, qualification, and screening      single bids for projects without conducting cost
                                                           requirements, as well as advancing safety initiatives      comparisons, (4) inaccurately describe scope in
                                                           at smaller carriers.                                       project documents, and (5) not maintain sufficient
                                                                                                                      records of ARRA-funded work.




                                                                                                                                Semiannual Report to Congress  |  7
Audits

Our findings and recommendations highlighted          strategies to achieve near- and long-term benefits,
opportunities to learn lessons from ARRA and          enhance contract oversight, and prevent misuse
further improve FAA’s grant oversight. While the      of airport revenue and grant funds. Finally, the
Agency is revising its policies and procedures to     Inspector General addressed challenges in ensuring
achieve these improvements, we asked FAA to           the continued safety of the National Airspace
provide additional information or reconsider its      System—FAA’s top priority. FAA’s safety challenges
response to four of our seven recommendations.        include collecting and analyzing data to prevent
                                                      air traffic controller operational errors, addressing
                                                      the rise in runway incursions, implementing the
April 18, 2013                                        remaining provisions of the Airline Safety Act,
                                                      safely integrating unmanned aircraft systems into
THE FEDERAL AVIATION                                  the National Airspace System, and using safety
ADMINISTRATION’S FISCAL YEAR                          data from air carriers to mitigate safety risks.
2014 BUDGET REQUEST: KEY ISSUES
FACING THE AGENCY                                     May 1, 2013
Testimony Before the Senate Appropriations            FAA CONTINUES TO FACE
Subcommittee on Transportation, Housing, and
                                                      CHALLENGES IN IMPLEMENTING A
Urban Development
                                                      RISK-BASED APPROACH FOR REPAIR
The Inspector General testified on three challenges   STATION OVERSIGHT
FAA faces as it works to meet its mission in a
restricted budget environment. First, he identified   Requested by the former Chairman of the House
opportunities for FAA to improve the management       Committee on Transportation and Infrastructure,
of its workforce—the Agency’s largest cost            Subcommittee on Aviation
driver—by strengthening its controller training
program, revising its controller staffing and         FAA is responsible for overseeing nearly 4,800
scheduling practices, and effectively allocating      repair stations used worldwide by U.S air carriers.
its safety inspectors. The second major challenge     To help repair station inspectors identify areas
the Inspector General discussed is FAA’s need         of greatest concern, FAA developed a risk
to protect its multibillion-dollar investment in      assessment process. However, FAA’s oversight
NextGen and other infrastructure improvements.        continues to emphasize completing mandatory
Specifically, he noted that FAA needs to set          inspections instead of targeting resources where
priorities and establish sound management             they are needed based on risk. Less than half of its




8  |  Audits and Investigations
Audits

inspection elements are evaluated based on risk,        that air traffic controllers rely on to manage traffic
and foreign repair stations are not inspected using     within a 50-mile radius of airports. Now known
a risk-based system. In addition, FAA’s oversight of    as the Terminal Automation Modernization/
foreign and domestic repair stations lacks effective,   Replacement (TAMR) program, this effort is
standardized processes for identifying deficiencies     necessary to replace aging equipment and achieve
and verifying that they have been addressed. As         FAA’s goals to enhance capacity and reduce delays
a result, we found numerous discrepancies at the        through NextGen. FAA is currently working on the
repair stations we visited.                             phase of TAMR that aims to install the Standard
                                                        Terminal Automation Replacement System (STARS)
FAA concurred with our nine recommendations             at 11 large terminal facilities.
to enhance the Agency’s oversight of repair
stations, citing plans to implement a new oversight     However, FAA has yet to identify and finalize all
system—the Safety Assurance System (SAS)—in             the software and hardware requirements needed
fiscal year 2015, and proposing actions to address      to successfully install STARS at the 11 facilities. In
our concerns in the interim. We are requesting          addition, FAA’s approved schedule to deploy STARS
additional information or alternative actions for       by 2017 lacks key deployment milestones and
three recommendations to ensure adequate                completion dates and was not evaluated for risk.
oversight until SAS is complete.                        FAA also omitted major program elements from the
                                                        cost baseline approved during its final investment
                                                        decision, such as an estimated $270 million in
May 29, 2013                                            technical software refresh and modernization
                                                        costs. The lack of a reliable schedule and cost
FAA’S ACQUISITION STRATEGY                              baseline for implementing STARS puts TAMR at risk
FOR TERMINAL MODERNIZATION                              of further schedule delays and cost growth.
IS AT RISK FOR COST INCREASES,                          We made four recommendations aimed at
SCHEDULE DELAYS, AND                                    improving FAA’s effectiveness in achieving terminal
PERFORMANCE SHORTFALLS                                  modernization. FAA concurred with three and
                                                        partially concurred with one. We are requesting
Self-initiated                                          additional information for one recommendation
                                                        that FAA concurred with.
Since 1996, FAA has been working to modernize
and standardize the terminal automation systems




                                                                  Semiannual Report to Congress  |  9
Audits

June 20, 2013                                           training and workload concerns may undermine
                                                        the program’s success and again lead to its
FAA LACKS A RELIABLE MODEL                              discontinuation.
FOR DETERMINING THE NUMBER                              We made seven recommendations to enhance
OF FLIGHT STANDARDS SAFETY                              FAA’s inspector staffing model and geographic
                                                        surveillance program; FAA concurred with six and
INSPECTORS IT NEEDS
                                                        partially concurred with one.
Required by the Airline Safety and FAA Extension Act
of 2010                                                 July 17, 2013
FAA employs approximately 4,000 aviation safety         FAA’S PROGRESS AND CHALLENGES
inspectors and 40 analysts who help maintain
safety among U.S. air carriers. Despite the overall     IN ADVANCING THE NEXT
safe record of these carriers, concerns remain          GENERATION AIR TRANSPORTATION
about FAA’s assessment of the number and
                                                        SYSTEM
experience levels of its inspectors and analysts,
its placement of inspectors, and the surveillance       Testimony Before the Chairman of the House
methods inspectors use to supplement their              Transportation and Infrastructure Committee,
regular inspections.                                    Subcommittee on Aviation
While FAA introduced a new inspector staffing
                                                        While FAA has made some progress since it
model in October 2009, it has not fully relied on the
                                                        launched the NextGen program a decade ago,
model’s results—due in part to continued concerns
                                                        many initiatives remain in the early stages of
with incomplete, inaccurate, and outdated data
                                                        development. The Inspector General testified
used in the model. These data deficiencies preclude
                                                        on three priorities the Agency must address to
FAA from reliably determining how many inspectors
                                                        achieve NextGen’s benefits. First, the Inspector
it needs, where they are most needed, and whether
                                                        General identified the underlying causes of FAA’s
the Agency’s approach is cost effective. As a result,
                                                        difficulties with advancing NextGen, including
inspector staffing processes continue to be driven
                                                        the lack of an executable plan, unresolved critical
by FAA’s regions, which can lead to subjective and
                                                        design decisions, undefined requirements, and
inconsistent staffing decisions. To supplement its
                                                        stakeholder skepticism. Second, the Inspector
regular inspections, FAA reinstated its geographic
                                                        General noted that integrating new performance-
surveillance program. While the program has the
                                                        based navigation routes and procedures, which will
potential to be a helpful oversight tool, inspector




10  |  Audits and Investigations
Audits

maximize near-term benefits such as fuel savings,       new software-related problems could impact the
is key to obtaining user support in NextGen. Finally,   program’s cost and schedule, and the Agency may
the Inspector General stated that, despite recent       need additional funds to complete the project.
progress, FAA faces cost and schedule risks with        Air traffic controllers and ERAM subject matter
its efforts to modernize automation systems that        experts have also raised concerns that FAA’s
controllers use to manage traffic at both terminal      schedule-driven approach may leave certain site-
and en route air traffic facilities.                    specific issues unaddressed. In addition, some key
                                                        capabilities, such as ERAM’s tracking software,
                                                        are experiencing issues that may impact future
August 15, 2013                                         NextGen capabilities. We encouraged FAA to
                                                        continue its efforts to address our September 2012
FAA HAS MADE PROGRESS                                   recommendations.
FIELDING ERAM, BUT CRITICAL
WORK ON COMPLEX SITES AND                               August 27, 2013
KEY CAPABILITIES REMAINS
                                                        FAA’S CONTROLLER SCHEDULING
Requested by the Chairman and Ranking Member
                                                        PRACTICES CAN IMPACT
of the House Committee on Appropriations,
Subcommittee on Transportation, Housing and             HUMAN FATIGUE, CONTROLLER
Urban Development, and Related Agencies                 PERFORMANCE, AND AGENCY
FAA’s efforts to modernize air traffic control          COSTS
depend on the successful implementation of the
                                                        Required by the FAA Modernization and Reform Act
En Route Automation Modernization (ERAM)
                                                        of 2012
system—a multibillion-dollar system for processing
flight data at facilities that manage high-altitude     In 2011, a series of highly publicized incidents
traffic. However, extensive software-related            involving air traffic controllers falling asleep on
problems have significantly delayed ERAM’s              duty or becoming unresponsive raised questions
nationwide implementation, resulting in hundreds        about the impact of FAA’s scheduling practices
of millions of dollars in increased costs. Since our    on controller performance. Our review of FAA’s
September 2012 report, FAA has made considerable        scheduling practices determined that controllers’
progress deploying ERAM and is now using the            work schedules and the nature of air traffic control
system at 16 sites at least part-time. However, as      work can cause fatigue and negatively impact
FAA deploys ERAM to the Nation’s busiest facilities,    controller performance and safety. Although




                                                                Semiannual Report to Congress  |  11
Audits

FAA has revised some of its controller scheduling     August 27, 2013
policies, it does not have metrics to determine
whether its new policies will reduce controller       FAA IS MAKING PROGRESS, BUT
fatigue. In addition, FAA’s new policies require a    IMPROVEMENTS IN ITS AIR TRAFFIC
second overnight controller at 30 facilities, which
costs the Agency approximately $1.9 million per       CONTROLLER FACILITY TRAINING
year—costs that could be offset by additional         ARE STILL NEEDED
measures, such as reducing overnight air traffic
services at the 72 facilities that do not meet the    Self-initiated
Agency’s minimum traffic guidelines for continuous
overnight operations. Finally, we found that          FAA plans to hire and train more than 11,700 new
controllers are working schedules that do not         air traffic controllers through fiscal year 2021. This
always comply with FAA’s scheduling policies on       presents significant challenges for the Agency,
the minimum amount of time required between           as new controllers can require more than 3 years
shifts.                                               of training to become fully certified. FAA created
                                                      an Independent Review Panel, which made
FAA concurred with all four of our recommendations    49 recommendations that could significantly
to further improve its controller scheduling          improve the controller hiring and training
practices. We are requesting additional information   processes. However, almost 2 years after the panel
for one recommendation to clarify FAA’s policies      issued its report, FAA has yet to implement any
regarding recuperative breaks on the midnight         of the recommendations or establish completion
shift.                                                timeframes. FAA faces significant challenges in
                                                      meeting its goal to reduce training times, including
                                                      managing contract training resources, maintaining
                                                      consistent leadership, measuring the impact
                                                      of simulators and other training initiatives, and
                                                      improving staffing composition at complex facilities
                                                      through controller placement and screening
                                                      programs.

                                                      We made five recommendations to assist FAA in
                                                      improving its facility training efforts. FAA concurred
                                                      with three recommendations and partially
                                                      concurred with two. We are requesting additional
                                                      information for one recommendation.




12  |  Audits and Investigations
Investigations

April 26, 2013                                          May 22, 2013
COMMERCIAL PILOT CONVICTED                              LOUISIANA MAN INDICTED FOR
FOR FLYING AN AIRCRAFT WHILE                            MAKING FALSE STATEMENTS
UNDER THE INFLUENCE OF                                  Ralph Cody, an airframe and power plant mechanic,
ALCOHOL                                                 was indicted in U.S. District Court, Shreveport,
                                                        LA, for falsifying aircraft maintenance logs. Cody
Paul Roessler, an FAA-certified commercial pilot,       certified the completion of annual inspections
was convicted in a jury trial in U.S. District Court,   without FAA Inspection Authorization certification;
Spokane, WA, for flying an aircraft while under the     Cody’s certification had expired in March 2001. In
influence of alcohol. In April 2012, we received a      some cases, Cody used a false certificate number
referral from FAA after Roessler failed to establish    when he signed aircraft logbooks certifying
contact with FAA’s Seattle Air Route Traffic Control    completion of the inspections.
Center and lined up for the wrong runway on
approach. The Spokane Airport police administered       Note: Indictments, informations, and criminal
a breathalyzer test to Roessler, which showed a         complaints are only accusations by the Government.
blood alcohol content of more than twice the legal      All defendants are presumed innocent unless and
limit.                                                  until proven guilty.

We are investigating this case with FAA’s
assistance.




                                                                Semiannual Report to Congress  |  13
Investigations

May 30, 2013                                            July 3, 2013
VIRGINIA PILOT SENTENCED TO JAIL                        CALIFORNIA MAN CONVICTED
FOR MAKING A FALSE STATEMENT                            FOR ENDANGERING SAFETY OF
ON AN FAA MEDICAL CERTIFICATE                           PASSENGER AIRCRAFT
APPLICATION                                             Hasan Ibrahim, of Los Gatos, CA, was convicted
Richard Patterson of Suffolk, VA, a commercial          by a jury in U.S. District Court, San Francisco, CA,
licensed pilot, was sentenced in U.S. District Court,   for attempting to place destructive substances on
Norfolk, VA, to 4 months incarceration and 3 years      an aircraft. The jury found that Ibrahim attempted
supervised release for making a false statement on      to place nine different hazardous materials on a
an FAA medical certificate application he submitted     passenger airplane bound for Frankfurt, Germany.
to FAA. Additionally, the court ordered Patterson       The materials were ultimately destined for Jeddah,
to seek mental health treatment. Our investigation      Saudi Arabia. In addition, Ibrahim was convicted for
revealed that three applications Patterson              transporting hazardous materials without shipping
submitted to obtain a second-class medical              papers and labels, failure to file export information,
certificate stated that he never had any surgeries,     and attempted smuggling.
when in fact he had two back-related surgeries.         The investigation was initiated when OIG learned
We conducted this investigation with assistance         that Ibrahim attempted to ship 64 boxes of
from FAA.                                               materials to Jeddah. The shipment was detained
                                                        and later seized by Customs and Border Protection.
                                                        An FAA review determined that the shipment
                                                        contained materials that were toxic, corrosive, or
                                                        flammable. Several of the items were forbidden
                                                        to be transported on passenger aircraft, and two
                                                        chemicals were forbidden to be transported on any
                                                        type of aircraft.

                                                        We conducted this investigation jointly with
                                                        the Federal Bureau of Investigation (FBI), with
                                                        assistance from FAA.




14  |  Audits and Investigations
Investigations

September 23, 2013
FORMER DIRECTOR OF HELICOPTER
MAINTENANCE PLEADED GUILTY
TO FALSIFYING CRASH-RELATED
DOCUMENTS
Levi Phillips, former director of maintenance for
Carson Helicopters Services, pleaded guilty in
U.S. District Court, Medford, OR, for his role in
falsifying documents pertaining to a helicopter
owned and operated by Carson that crashed while
performing contracted firefighting services for
the U.S. Forest Service (USFS). The crash resulted
in multiple fatalities. The National Transportation
Safety Board’s (NTSB) investigation of the crash
uncovered allegations that Carson falsified
helicopter documents, which included weight
and balance sheets and performance charts that
enable a pilot to make accurate maximum payload
calculations. The investigation determined that
Carson submitted falsified or altered documents
to USFS as part of its bid package, which included
an altered FAA-approved performance chart and
altered weight and balance charts.

This investigation is being conducted jointly
with the FBI; Internal Revenue Service, Criminal
Investigation (IRS CI); and the U.S. Department of
Agriculture OIG.




                                                      Semiannual Report to Congress  |  15
16  |  Audits and Investigations
                                                                                                       IN FOCUS
                                                                                                       MAINTAINING A SAFE AND EFFICIENT
                                                                                                       NATIONAL AIRSPACE SYSTEM
                                                                                                       T   raining new air traffic controllers is a
                                                                                                           key priority in maintaining the safety
                                                                                                       and efficiency of the National Airspace
                                                                                                                                                      completion timeframes. We concluded that
                                                                                                                                                      although FAA has taken actions that can
                                                                                                                                                      improve its controller training program,
                                                                                                       System—especially as FAA implements            such as placing newly hired controllers
                                                                                                       new, advanced technologies under its           at facilities based on the candidate’s
                                                                                                       next generation air traffic management         performance at the FAA Academy, it needs
                                                                                                       program. FAA plans to hire and train more      to track the progress of its initiatives and
                                                                                                       than 11,700 new air traffic controllers        establish more efficient mechanisms for
                                                                                                       through fiscal year 2021 to offset expected    assessing their impact.
                                                                                                       losses. While FAA hired more than 6,600
                                                                                                       new controllers between 2008 and 2013,         We also found that further steps are
                                                                                                       our work over the past decade has found        needed to ensure air traffic facilities have
                                                                                                                                                      the training support resources they need.
“TECHNE SPARROWHAWK II WORN BY AN AIR TRAFFIC CONTROLLER” BY FREDERIC VIA MRTIME2GIVE / CC BY-SA 2.0




                                                                                                       that training and fully certifying new
                                                                                                       recruits has been difficult.                   For example, in July 2012, FAA reduced
                                                                                                                                                      its use of contracted training resources
                                                                                                       Training and certifying new controllers        by 62 percent at all 22 en route centers.
                                                                                                       can take several years. Recruits must          Given the reduction in resources, managers
                                                                                                       complete a demanding training program          at the Memphis Center are preparing to
                                                                                                       that includes learning basic air traffic       supplement training by using certified
                                                                                                       control concepts at the FAA Academy,           controllers already assigned air traffic
                                                                                                       followed by extensive training at one of       control positions. As a result of moving
                                                                                                       FAA’s more than 300 air traffic facilities.    experienced controllers from day-to-day
                                                                                                       However, the efficiency and quality of         operations, facility managers expect an
                                                                                                       training through FAA’s controller training     increase in overtime as well as an increase
                                                                                                       program varies significantly by facility.      in the time it takes for new controllers to
                                                                                                       In response to an Independent Review           become fully certified. Addressing this
                                                                                                       Panel, FAA consolidated the panel’s            challenge will be critical to achieving the
                                                                                                       49 recommendations—many addressing             full potential of FAA’s current and future
                                                                                                       previous OIG recommendations—into              controller training efforts.
                                                                                                       20 initiatives that cover a broad range
                                                                                                       of categories, including facility training.    At the same time, a series of highly
                                                                                                       However, our recent review found that          publicized incidents of air traffic controllers
                                                                                                       almost 2 years after the panel’s report        sleeping or not responding while on
                                                                                                       was issued, FAA has yet to implement           duty raised questions about FAA’s
                                                                                                       any of the recommendations or establish        scheduling practices and their effect on




                                                                                                                                                                     Semiannual Report to Congress  |  17
  controller performance and air traffic safety. We        overnight controller cost the Agency approximately
  determined that the nature of air traffic control        $1.9 million per year—costs that could be offset by
  work and controllers’ erratic work schedules could       additional measures, such as reducing costs related
  cause fatigue and negatively impact controller           to its overnight operations.
  performance and safety. FAA changed its
  scheduling policy to require an additional air traffic   OIG has been instrumental in helping FAA navigate
  controller on the midnight shift at 30 facilities        this difficult transition by identifying obstacles,
  and mandate a minimum of 9 hours off between             especially those that create inefficiencies and risks.
  evening and day shifts. While these policy changes       Since 2004, OIG has issued 15 reports, with a total
  may help alleviate controller fatigue, the Agency        of 72 recommendations for improving controller
  does not have metrics to confirm this assumption         staffing and training. Most recently, we determined
  or the extent to which controller fatigue is reduced.    that FAA needs to track the progress of its training
  In addition, facility managers raised concerns           and certification efforts, as well as put in place
  about the lack of explicit guidance regarding            more efficient mechanisms for assessing their
  what activities are allowed during recuperative          impact on training times, completion rates, and
  breaks, which FAA permits during midnight shifts.        costs. As the Agency continues to manage the
  Specifically, they expressed concern regarding           change from an older more experienced controller
  the ability to recall employees on breaks and the        workforce to one that includes newly hired
  legality of allowing employees to sleep while on         personnel, OIG will continue to review the Agency’s
  duty. We found that controllers’ schedules do            policies and practices to ensure the safest and
  not always comply with FAA’s scheduling policies         most efficient transition of the air traffic controller
  on the minimum rest time required between                workforce.
  shifts. We also found that requiring a second




                                                                                                                     “AIR TRAFFIC CONTROL” JOJO 77 / CC BY-NC 2.0




18  |  In Focus
Semiannual Report to Congress  |  19
           OIG’S HIGHWAY AND TRANSIT WORK EMPHASIZES SAFETY AND ECONOMY
           THROUGH AUDITS OF FEDERAL INFRASTRUCTURE PROGRAMS, HIGHWAY
           SAFETY EFFORTS, AND MOTOR CARRIER OVERSIGHT PROGRAMS, AND
           THROUGH INVESTIGATIONS OF FRAUDULENT COMMERCIAL DRIVERS
           LICENSES, DRIVERS’ LOGS, AND TRUCK AND BUS MAINTENANCE RECORDS, AS
           WELL AS HOUSEHOLD GOODS FRAUD SCHEMES, CONTRACTING AND ANTI-
           TRUST VIOLATIONS, AND DBE FRAUD




20  |  Audits and Investigations
                                                       AUDITS AND INVESTIGATIONS
                                                       HIGHWAY AND TRANSIT
                                                       Audits

                                                       May 7, 2013                                          12 percent, of ARRA progress payments made to
                                                                                                            contractors in three States were unsupported.
                                                       LESSONS LEARNED FROM ARRA                            In addition, FHWA allows its Division Offices to
                                                       COULD IMPROVE THE FEDERAL                            determine the type, scope, and consistency of
                                                                                                            project inspections and the extent of supervision
                                                       HIGHWAY ADMINISTRATION’S USE                         when performing full oversight inspections.
                                                       OF FULL OVERSIGHT                                    Without adequate FHWA guidance, Division Offices
                                                                                                            rarely prepared written plans and did not fully
                                                       Self-initiated                                       document procedures performed or justify why
                                                                                                            they excluded some Federal requirements and
                                                       With the infusion of $27.5 billion in ARRA funds     related risk areas from review. Further, contrary
                                                       for highway projects, the Federal Highway            to FHWA’s guidance, FHWA inspection reports had
                                                       Administration (FHWA) had to meet enhanced           limited evidence of supervisory review.
                                                       oversight and accountability requirements. To
                                                       address these requirements, FHWA performed           FHWA concurred with our recommendation to
                                                       ARRA programmatic and project reviews of States’     sample additional ARRA projects and mitigate
                                                       management of Federal funds, and conducted full      any similar instances of noncompliance related
                                                       oversight reviews of about 1,200 of nearly 15,000    to progress payment support. FHWA partially
                                                       ARRA projects to ensure States met all relevant      concurred with our recommended policy changes
                                                       Federal requirements. Under full oversight, FHWA     to improve its oversight of project-specific risks and
                                                       retains review and approval responsibilities for     document its risk assessment process and related
                                                       project design, plans, specifications, estimates,    project-level inspection procedures. FHWA cited its
                                                       right-of-way certification statements, contract      plans to develop an alternative oversight approach
                                                       awards, inspections, and final acceptance.           that would address our recommendations as well
“PLACEMENT OF BRIDGE PIERS” BY DDOTDC / CC BY-NC 2.0




                                                                                                            as new requirements under MAP-21. We consider all
                                                       However, FHWA’s full oversight inspections did not   four recommendations resolved but open pending
                                                       routinely verify whether States detected instances   completion of planned actions.
                                                       of noncompliance with some Federal requirements.
                                                       For example, we projected that $125.6 million, or




                                                                                                                    Semiannual Report to Congress  |  21
Audits

May 22, 2013                                            statutorily set dates. We are planning additional
                                                        audits of the Department’s implementation of
LETTER TO CONGRESS ON THE                               Subtitle C requirements.
STATUS OF MAP-21, SUBTITLE C:
ACCELERATION OF PROJECT                                 June 12, 2013
DELIVERY                                                LESSONS LEARNED FROM THE
Required by the Moving Ahead for Progress in the        EAST SIDE ACCESS PROJECT CAN
21st Century Act                                        ENHANCE FTA’S OVERSIGHT OF
MAP-21 is the first long-term surface transportation    MTA’S REPORTING ON REMAINING
authorization since 2005, providing $105 billion        ARRA GRANTS
for fiscal years 2013 and 2014. Subtitle C of the
act is designed to increase innovation in surface       Self-initiated
transportation project delivery and efficiency
of project planning, design, construction,              FTA has committed nearly $2.7 billion in Federal
and financing. This initial review assessed the         funding to the Metropolitan Transportation
Department’s plan and progress in complying with        Authority’s (MTA) East Side Access (ESA) project.
Subtitle C requirements.                                While MTA safeguarded the ESA materials
                                                        purchased with ARRA funds and met ARRA
As of March 27, 2013, the Department developed a        certification requirements for the ESA ARRA New
plan with 42 actions to meet Subtitle C requirements,   Starts funds, MTA’s Section 1512 reports omitted
most of which involve environmental issues that         required data that FTA quality reviews did not
occur during the planning and design phase of           detect. Specifically, MTA’s final report did not
highway and transit projects. The Department            include required vendor payment information for
completed five of these actions, including issuing      over $19 million (nearly 10 percent) of the ESA
question-and-answer guidance on a wide range            ARRA grant funding. Because FTA’s data quality
of topics and a proposed rulemaking on using            reviews did not identify these omissions in MTA’s
categorical exclusions to expedite projects after       Section 1512 quarterly reports, it underreported
disasters or emergencies. (The rule was finalized       vendor payment data to the public.
in February 2013.) However, the plan does not
assign estimated completion dates for all planned       We recommended that FTA (1) identify and
actions. Further, the Department faces challenges       validate the steps MTA plans to take to improve
to complete all required rulemakings within the         the accuracy of vendor payment data in its




22  |  Audits and Investigations
Audits

Section 1512 reports to prevent future omissions   activities, such as increasing the amount of data it
and (2) perform an additional data quality check   collects and uses to monitor unexpended funds.
when reviewing the final report for each of        FHWA Headquarters tracks ARRA expenditures,
MTA’s three remaining FTA ARRA grants. FTA         recoveries, and project closeouts and distributes
concurred with our recommendations and provided    weekly status reports to the Division Offices for
appropriate planned actions and target dates for   their use. Individual Division Offices also track
their completion.                                  expenditures at a more detailed level and regularly
                                                   meet with their State counterparts to investigate
                                                   the status of ARRA highway projects. However,
September 4, 2013                                  due to Federal restrictions on the use of funds and
                                                   FHWA policy on the uses of recovered ARRA funds,
FHWA IS MONITORING                                 an estimated $356 million in ARRA highway funds
UNEXPENDED RECOVERY ACT                            could remain unused when ARRA concludes in
HIGHWAY FUNDS, BUT SOME                            September 2015.
FUNDS MAY REMAIN UNUSED                            We recommended that FHWA revise its policy
                                                   regarding the treatment of recovered ARRA
Self-initiated                                     funds and determine more accurately how much
                                                   recovered funding States need in excess of the
FHWA is responsible for overseeing $27.5 billion   authority FHWA has provided to obligate recovered
in ARRA investments for highway infrastructure     funds. FHWA concurred with one recommendation
projects nationwide, including $26.1 billion for   and partially concurred with the other, proposing
State highway projects. As of April 2013, about    an alternative action. We are requesting additional
96 percent of these funds have been expended.      information to fully assess FHWA’s proposed
FHWA actions have been adequate to monitor         action.
remaining unexpended ARRA funds that have
been obligated. FHWA’s actions included
adopting practices beyond its regular oversight




                                                           Semiannual Report to Congress  |  23
Audits                                                  Investigations

September 18, 2013                                      April 18, 2013
STATUS OF DOT’S ACTIONS TO                              FORMER FLORIDA DEPARTMENT
ADDRESS SUBTITLE C OF THE                               OF TRANSPORTATION EMPLOYEE
MOVING AHEAD FOR PROGRESS IN                            SENTENCED TO FEDERAL PRISON
THE 21ST CENTURY ACT                                    Tina Marie Pollard, a former Florida Department of
Testimony Before the Senate Committee on                Transportation (FDOT) employee, was sentenced
Environment and Public Works                            to serve 3 years and 3 months incarceration. As part
                                                        of a plan to widen 20 miles of Interstate 4, FDOT
The Assistant Inspector General for Highway and         purchased property in 2006 that MLA Furniture
Transit Audits testified on the status of DOT’s         rented in Orlando. The right-of-way property was
actions to address MAP-21’s Subtitle C, which calls     procured with Federal and State grant funds.
for accelerating project delivery through increased     Pollard worked out of FDOT’s DeLand office as a
innovation and efficient project planning, design,      right-of-way agent whose job was to help relocate
construction, and financing. The Assistant Inspector    people and businesses displaced by transportation
General focused on the results of OIG’s initial         projects. In return for personally receiving $30,000,
review, which we reported in a May 2013 letter to       Pollard conspired with MLA to process fictitious
congressional and other stakeholders. The initial       claims representing that MLA Furniture had applied
review focused on (1) the Department’s plans to         for reimbursement of relocation expenses, even
carry out provisions of Subtitle C, (2) the status of   though MLA had not incurred such expenses.
planned actions, and (3) key challenges that could
                                                        In addition to the prison sentence, Pollard was
delay the Department’s implementation of those
                                                        ordered to pay restitution to the State of Florida in
plans. The initial review also sought to create a
                                                        the amount of $242,981.25; forfeit $30,000 in bribe
baseline of planned actions to guide future audit
                                                        money she received; and fined a special assessment
work, which will provide a more comprehensive
                                                        of $200. Upon release from prison, Pollard will
assessment of DOT’s actions.
                                                        serve 2 years of supervised release and perform
                                                        25 hours of community service. We investigated
                                                        this case jointly with the FDOT OIG.




24  |  Audits and Investigations
Investigations

April 24, 2013                                          Allen received a sentence of 60 months
                                                        imprisonment; 3 years supervised release; and
FLORIDA CONTRACTOR SENTENCED                            a $15,000 fine. Hashim received a sentence of
FOR BRIBERY RELATING TO                                 36 months imprisonment; 3 years supervised
                                                        release; and a $15,000 fine. Additionally, both
PROGRAMS RECEIVING FEDERAL                              defendants were ordered to jointly forfeit
FUNDING                                                 $3 million. We are investigating this case jointly
                                                        with the FBI and IRS CI.
Anthoneel Allen, president and owner of Southeast
Underground and Utilities, Inc. (SUU), and James
Hashim, former vice president of SUU, were              May 7, 2013
sentenced in U.S. District Court, Fort Lauderdale,
FL, for conspiracy to commit bribery in programs
                                                        FLORIDA DEPARTMENT OF
receiving Federal funds, highway fraud, mail fraud,     TRANSPORTATION CONSULTANT
extortion, and tax fraud.                               SENTENCED FOR ACCEPTING A
The investigation revealed that from fall 2006          BRIBE
through 2010, Allen and Hashim provided Jihad
El Eid, former director, Broward County Traffic         Ron Capobianco, Jr., a construction engineering
Engineering Division, at his request, more than         and inspection consultant at Metric Engineering,
$150,000 in cash; an automobile; and a job at           Inc., was sentenced in U.S. District Court, Miami, FL,
SUU for Wael El Eid, Jihad’s relative. In return,       for conspiracy to commit bribery in connection with
Jihad El Eid allegedly helped SUU obtain work           programs receiving Federal funds. FDOT contracted
on multimillion-dollar projects initiated by            with Metric to provide specialty services, including
Broward County Traffic Engineering Division—            designing, inspecting, and troubleshooting the
part of a larger federally funded project. The          construction of roads, signs, and traffic signals—
investigation disclosed that Jihad El Eid assisted      including the use of video detection cameras for
SUU’s overpayment of at least $3 million. In            traffic signalization and control. In May 2009,
addition, Allen, on behalf of SUU, filed a fraudulent   an agent of a subcontractor working on the
application to have SUU certified as a DBE, resulting   Marathon Key project—a traffic flow improvement
in the award of approximately 25 fraudulent             project in the Florida Keys partially funded with
contracts and subcontracts to SUU in excess of          Federal funds—offered Capobianco money if
$10 million.                                            the subcontractor received at least $25,000 for
                                                        installing the video detection equipment FDOT
                                                        began. Capobianco agreed to the subcontractor’s




                                                                Semiannual Report to Congress  |  25
Investigations

$25,000 estimate, enabling the subcontractor          guilty to violating the orders and was subsequently
to make a significant profit. The subcontractor’s     sentenced to 6 months incarceration and 12 months
estimate was approved and subsequently paid           supervised release.
by the State of Florida. The subcontractor paid
Capobianco $4,000 for his assistance.                 While on supervised release, Lewis was ordered
                                                      to not be involved in the operation of any trucking
Capobianco received a sentence of 12 months and       company. However, Lewis obtained U.S. DOT
1 day imprisonment, 1 year supervised release, and    Numbers for Eagle Transport and Eagle Trans using
200 hours of community service. He also made a        the identity of friends, including Daniels, and failing
forfeiture payment of $4,000. We are conducting       to reveal his involvement to FMCSA as owner-
this investigation jointly with the FBI and IRS CI.   operator of the companies. After reporting to
                                                      Federal prison in November 2012, Lewis continued
                                                      operating Eagle Trans with the assistance of Lacey
May 14, 2013                                          Lewis, Daniels, and Outlaw.
FOUR GEORGIA MEN INDICTED                             We are conducting this investigation with assistance
FOR FALSE STATEMENTS AND                              from FMCSA and the Georgia Department of Public
                                                      Safety.
CONSPIRACY TO VIOLATE FMCSA
IMMINENT HAZARD ORDERS                                Note: Indictments, informations, and criminal
                                                      complaints are only accusations by the Government.
Devasko Lewis, Corey Daniels, Lacey Lewis, and        All defendants are presumed innocent unless and
Calvin Outlaw were indicted in U.S. District Court,   until proven guilty.
Macon, GA, for false statements and conspiracy
to criminally violate an Imminent Hazard Out-of-
Service Order issued by the Federal Motor Carrier
                                                      May 21, 2013
Safety Administration (FMCSA). In October 2008,       MAINE MAN SENTENCED FOR
Devasko Lewis, doing business as Lewis Trucking
Company, was placed under an order to cease all       EMBEZZLEMENT FROM A FEDERALLY
operations due to serious violations discovered       FUNDED PROGRAM
during a compliance review FMCSA conducted after
a fatal crash in Alabama that killed seven State of   Thomas Nelson, former chief executive officer of
Alabama prison guards. In July 2011, Lewis formed     the York County Community Action Corporation
DDL Transport, LLC, which was ultimately placed       (YCCAC), was sentenced in U. S. District Court,
under another order. In May 2012, Lewis pleaded       Portland, ME, to 30 months incarceration and




26  |  Audits and Investigations
Investigations

36 months supervised release, and ordered to pay    We investigated this case with the IRS, as well as
$1,345,793.95 in restitution for tax evasion and    OIGs of the Departments of Health and Human
conspiracy and embezzlement from a federally        Services, Housing and Urban Development, and
funded program.                                     Agriculture.

From 2006 to 2010, YCCAC received in excess
of $30 million in Federal funds, including          May 21, 2013
approximately $7 million in FTA grants, to
provide social service, health, education, and      NEW HAMPSHIRE MAN SENTENCED
transportation-related assistance to York County    FOR FALSELY OBTAINING SURETY
individuals and families living in poverty. Some
of the FTA grants, including those for the Rural
                                                    BONDS
Transit Assistance Program and Urban Transit
                                                    Nazar Lopushansky, owner of Engelwood
Assistance Program, were funded by ARRA. The
                                                    Construction Company, Inc., was sentenced in U.S.
investigation disclosed that that from 2004 to
                                                    District Court, Concord, NH, to 1 year and 1 day in
2010, Nelson embezzled approximately $900,000
                                                    prison and 2 years probation, and ordered to pay
from YCCAC. He diverted $413,000 to a consulting
                                                    $253,585.62 in restitution. Lopushansky caused a
company that submitted only one invoice for
                                                    certified public accountant to create a financial
$8,700. In exchange for the fraudulent payments,
                                                    statement that falsely increased Engelwood’s
the consulting company kicked cash back to Nelson
                                                    cash assets by $450,000. Lopushansky used the
and paid more than $20,000 of Nelson’s personal
                                                    fraudulent financial statement to obtain bonds
expenses, including his home mortgage. Nelson
                                                    required for four State and local contracts,
also diverted more than $400,000 to a defunct
                                                    including one that was federally funded. To acquire
nonprofit entity, New England Community Action
                                                    these bonds, Lopushansky provided copies of the
Agency, and recorded those payments as donations
                                                    fraudulent financial statement to Bond Safeguard,
or consulting expenses. After diverting these
                                                    a bond company in Tennessee.
funds, Nelson used more than $300,000 to pay
personal credit card bills and his home mortgage,   We investigated this case with the U.S. Postal
and to gamble, failing to report over $400,000 in   Inspection Service.
embezzled income to the IRS.




                                                            Semiannual Report to Congress  |  27
Investigations

May 28, 2013                                           May 30, 2013
CIVIL CHARGES FILED AGAINST                            BUS COMPANY, OWNER, AND
VIRGINIA CONSTRUCTION                                  EMPLOYEE INDICTED ON CHARGES
COMPANY AND ITS OWNER FOR                              RELATED TO A FATAL BUS CRASH
VIOLATING FEDERAL FALSE CLAIMS                         Angel De La Torre, Carlos Ortuno, and Angel Tours
ACT                                                    of Houston, TX, were indicted in U.S. District
                                                       Court, Houston, TX, on charges of conspiracy,
In U.S. District Court, Richmond, VA, a civil          false statements, and operating a commercial
complaint was filed against Ground Down                motor vehicle after being placed out of service.
Constructors and its owner, Tracey Williams, for       The charges relate to an August 2008 fatal crash
submitting false invoices to the Virginia Department   of an Angel Tours passenger bus near Sherman,
of Transportation (VDOT) on a road construction        TX. The indictment alleges that the defendants
project that received approximately 90 percent in      made false statements in an Application for
DOT funds. Ground Down and Williams are charged        Motor Carrier Authority and in an Application
with violating the False Claims Act and the Virginia   for U.S. DOT Number filed with FMCSA. De La
Fraud Against Taxpayers Act. OIG’s investigation       Torre and Angel Tours also allegedly operated a
revealed that Ground Down and Williams knowingly       commercial motor vehicle after being placed out
inflated the amounts of materials used and the         of service due to an unsatisfactory safety rating
origin of materials on invoices submitted to VDOT      following an FMCSA inspection that uncovered
for payment. The alleged single damages are            numerous recordkeeping and safety violations. As
approximately $20,000.                                 a result of this inspection, FMCSA ordered Angel
Note: Indictments, informations, and criminal          Tours to cease all interstate transportation on
complaints are only accusations by the Government.     June 23, 2008—more than 2 weeks prior to the
All defendants are presumed innocent unless and        fatal crash.
until proven guilty.                                   We are investigating this case jointly with the FBI
                                                       and FMCSA.

                                                       Note: Indictments, informations, and criminal
                                                       complaints are only accusations by the Government.
                                                       All defendants are presumed innocent unless and
                                                       until proven guilty.




28  |  Audits and Investigations
Investigations

June 7, 2013                                           June 17, 2013
COMPANY AGREES TO $500,000                             U.S. AND NEW YORK-BASED
FALSE CLAIMS SETTLEMENT                                ELECTRICAL CONTRACTOR SETTLE
Hanson Pipe & Precast, LLC (HPP), a subsidiary
                                                       CIVIL FALSE CLAIMS ACTION
of Lehigh Hanson, Inc., an international building      The U.S. Attorney for the Southern District of New
products company, entered into a settlement            York reached an agreement with Kleinberg Electric
agreement in U.S. District Court, Nashville, TN, in    to settle claims that the company violated DOT
connection with a civil investigation of allegations   regulations designed to ensure DBE participation in
that HPP submitted false claims for products           the DOT-funded New York State-MTA Fulton Street
that did not meet required specifications. These       Transit Center Dey Street Concourse. The company
products included concrete end walls and catch         admitted that it caused the prime contractor to
basins that are typically used in and adjacent to      submit false certifications to MTA, representing
roadway construction. HPP agreed to pay the            that work was performed by J&R Rey Electrical (a
United States $500,000 to settle these allegations.    DBE) on the project, when in fact Kleinberg Electric
The Tennessee Department of Transportation             performed the work. Pursuant to the settlement,
(TDOT) performed destructive testing of several        Kleinberg Electric agreed to pay the United States
precast concrete units manufactured by HPP for         $936,000.
use in highway projects, and several were found
not to conform to TDOT specifications related          We investigated this case jointly with MTA OIG.
to the strength and placement of rebar within
the products. HPP previously reimbursed TDOT
$270,468.82 for damages related to the non-
conforming units.




                                                               Semiannual Report to Congress  |  29
Investigations

June 25, 2013                                           June 26, 2013
FORMER GENERAL MANAGER                                  CALIFORNIA MAN CHARGED
OF VIRGINIA TRANSIT AGENCY                              IN FRAUD SCHEME TO STEAL
SENTENCED TO PROBATION AND                              COMPUTER EQUIPMENT INTENDED
ORDERED TO PAY RESTITUTION FOR                          FOR NONPROFIT SCHOOLS
THEFT OF FTA GRANT FUNDS                                Steven A. Bolden of Palmdale, CA, was indicted in
David Morgan, former general manager of Valley          U.S. District Court, Tacoma, WA, for his role in a
Metro Transit, was sentenced in U.S. District           scheme to transfer to himself computer equipment
Court, Roanoke, VA, for embezzling money from           originally purchased by the U.S. Government for
DOT. Between July 2007 and June 2008, Morgan            more than $25 million. Bolden presented himself
used Valley Metro Transit credit cards to make          as a representative of nonprofit schools eligible to
inappropriate purchases, which were paid for, in        receive excess computers through General Services
part, with FTA operating grant funds. Further, in       Administration’s (GSA) Computers for Learning
2006, FTA awarded Valley Metro an $80,000 grant         program, which allows surplus computers and
to replace furniture at the company’s downtown          technology equipment to be transferred to schools
Roanoke administration building. However, Morgan        and nonprofit education groups.
used the grant funds on meals, alcohol, golf fees,      OIG began investigating Bolden after receiving
cigars, and gift cards totaling more than $14,000.      information from FHWA’s Western Federal Lands
Morgan was sentenced to 30 months probation             Highway Division (WFLHD). In March 2011, WFLHD
and ordered to pay $10,416 in restitution.              posted a pallet of 15 computers, initially costing
We investigated this case jointly with the U.S.         the Government $13,950, on the Computers for
Postal Inspection Service, Virginia State Police, and   Learning Web site. A request for the computers
the City of Roanoke Police Department.                  was made on behalf of the Los Angeles Academy
                                                        of Educational Development (LAAED), and in April
                                                        2011, the computers were shipped from WFLHD
                                                        to LAAED. In September 2011, WFLHD received a
                                                        United Parcel Service (UPS) shipping bill, which was
                                                        supposed to be paid by LAAED, but UPS was unable
                                                        to contact that entity or Bolden to collect payment.
                                                        Our investigation determined that LAAED was not a
                                                        legitimate nonprofit school.




30  |  Audits and Investigations
Investigations

We are investigating this case jointly with Army     iron permanently incorporated into the project
Criminal Investigative Division; OIGs of the         be manufactured in the United States. OIG’s
Departments of Homeland Security, Energy, and        investigation determined that Hubtec and Kim used
Justice; OIGs in GSA, the Veterans Administration,   Korean-made steel bars for the project and falsely
the Social Security Administration; the FBI; and     represented that U.S.-made reinforcement steel
IRS CI.                                              bars were used. They also committed fraud through
                                                     a billing scheme that falsely over-reported the costs
Note: Indictments, informations, and criminal        of materials. Kim submitted inflated invoices to
complaints are only accusations by the Government.   FHWA in the amount of approximately $154,392. In
All defendants are presumed innocent unless and      May 2013, FHWA debarred Kim for 3 years.
until proven guilty.
                                                     We are conducting this investigation jointly with
                                                     the FBI, with assistance from FHWA.
June 27, 2013
GUAM COMPANY PRESIDENT                               July 25, 2013
SENTENCED ON CHARGES RELATED
                                                     TENNESSEE CONCRETE COMPANY
TO A “BUY AMERICA” FRAUD
                                                     AGREES TO CIVIL SETTLEMENT FOR
SCHEME ON AN ARRA-FUNDED
                                                     FALSE CLAIMS ACT VIOLATIONS
PROJECT
                                                     In U.S. District Court, Nashville, TN, Sherman-Dixie
In U.S. District Court of Guam, Tamuning, GU,        Concrete Industries, Inc., agreed to pay a civil
Hubtec International Corporation President and       settlement of $664,581 to the U.S. Government
Project Manager Young C. Kim was sentenced to        for submitting false claims for payment of
2 years probation and ordered to pay a special       products that did not meet required specifications
assessment of $200 after having admitted             on federally funded highway projects. These
to devising a scheme to defraud the Guam             products included concrete end walls and catch
Department of Public Works (DPW) and FHWA.           basins that are typically used in and adjacent to
In January 2010, Hubtec received a $1.8 million      roadway construction. The United States alleged
contract with DPW for reconstructing and             that Sherman-Dixie submitted these claims after
rehabilitating Route 2 culverts. The contract was    repeatedly certifying that its products were
funded in part by $1.4 million in ARRA funds and     in reasonable compliance and were produced
required that the contractor comply with the         pursuant to applicable procedures when they
Buy America Act requirement that all steel and       were not. In addition, Sherman-Dixie entered into




                                                             Semiannual Report to Congress  |  31
Investigations

a monitoring agreement with FHWA that requires         August 23, 2013
Sherman-Dixie to take certain compliance measures
to reduce the likelihood of future violations.         CALIFORNIA WOMAN CHARGED
We conducted this investigation jointly with the       FOR PROVIDING FRAUDULENT
FBI and the U.S. Attorney’s Office for the Middle      DRUG TESTING SERVICES TO
District of Tennessee.
                                                       TRUCKING COMPANIES
August 5, 2013                                         Demetri Dearth, owner and operator of Advanced
                                                       Substance Abuse Programs (ASAP), Redding, CA,
GEORGIA COMPANY AGREES TO                              was indicted in U.S. District Court, Sacramento,
                                                       CA, for mail fraud and false statements to a
PAY $95,000 TO GOVERNMENT TO                           Government agency regarding random and
SETTLE FALSE CLAIMS ALLEGATIONS                        pre-employment drug testing for motor carrier
                                                       drivers. The indictment alleges that Dearth falsified
In U.S. District Court, Nashville, TN, Oldcastle       specimen test results required by and provided to
Precast, Inc., a national building products company,   FMCSA and other DOT agencies.
agreed to pay a civil settlement of $95,000 to the
United States in connection with allegations that      Between March 2009 and February 2010, ASAP
Oldcastle submitted false claims for products that     collected urine specimens on behalf of 80 trucking
did not meet required specifications. The products     companies that employed commercial drivers.
in question were catch basins that are typically       Dearth failed to forward the specimens to certified
used in and adjacent to roadway construction.          laboratories and have a medical review officer
TDOT performed destructive testing of several          (MRO) review test results. Instead, she created and
precast concrete units manufactured by Oldcastle,      provided to clients false and fraudulent Custody
and several did not conform to TDOT specifications     and Control Forms that represented the specimens
related to strength and the placement of rebar         had been sent to laboratories for eventual MRO
within the products. Oldcastle had previously          review, including the names and addresses of
reimbursed TDOT $40,552 for damages related to         specific MROs. Dearth also created fraudulent
the non-conforming units.                              MRO reports that indicated the tests had come
                                                       back negative and were signed by MROs. Dearth
                                                       then mailed invoices to clients, billing them for the
                                                       testing and MRO reviews.




32  |  Audits and Investigations
Investigations

OIG is conducting this investigation with assistance    September 12, 2013
from the California Highway Patrol and DOT’s Office
of Drug and Alcohol Policy and Compliance.              OWNERS OF TENNESSEE TRUCKING
Note: Indictments, informations, and criminal           COMPANIES CHARGED FOR
complaints are only accusations by the Government.      VIOLATING FMCSA REGULATIONS
All defendants are presumed innocent unless and
until proven guilty.                                    Dorian Ayache, owner and operator of Three
                                                        Angels Farms, an interstate commercial motor
                                                        carrier based in Lebanon, TN, and Theresa Vincent,
August 30, 2013                                         owner and operator of Terri’s Farm, an interstate
                                                        commercial motor carrier based in Murfreesboro,
SAN JOSE MAN SENTENCED TO                               TN, were indicted in U.S. District Court, Nashville,
JAIL AND FINED $83,084 FOR                              TN, on charges related to criminal violations of
HOUSEHOLD GOODS SCHEME                                  FMCSA regulations. The indictment charged Ayache
                                                        with violating an Imminent Hazard Order issued
In Superior Court, County of Santa Clara, CA, Ruben     by FMCSA, conspiracy, and obstruction of an
Salas, a resident of San Jose, CA, was sentenced to     investigation. Vincent was charged with conspiracy
serve 64 months in jail and ordered to pay $83,084      and perjury.
in fines for his participation in a scheme to defraud
                                                        In June 2012, FMCSA determined that Three Angels
moving customers. Salas, a Bekins Van Lines sales
                                                        Farms operations posed an imminent hazard to
employee, and other employees, including the
                                                        public safety due to unacceptable safety practices,
owner, lured customers with lowball quotes. Once
                                                        including failure to adequately maintain commercial
the moves were in progress, customers were told
                                                        motor vehicles and ensure driver qualification,
their furniture and other belongings would be
                                                        and ordered Ayache to cease commercial motor
taken to storage unless they paid additional fees
                                                        vehicle operations. Ayache was also cited for
for packing and packaging supplies.
                                                        accidents that occurred in January and June 2012
We conducted this investigation jointly with the        that fatally injured horses. In criminal violation of
Consumer Protection and Workers’ Compensation           this order, Ayache continued commercial motor
Units of the Santa Clara County District Attorney’s     carrier operations under the name and authority
Office, the California Public Utilities Commission,     of Terri’s Farm, as well as under other names.
the California Franchise Tax Board, the Alameda         FMCSA subsequently categorized Terri’s Farm as
and Monterey County District Attorneys’ Offices,        a mere continuation of Three Angels Farms and
and the FBI, with assistance from FMCSA.                placed Terri’s Farm under an Imminent Hazard




                                                                Semiannual Report to Congress  |  33
Investigations

Order. Ayache also concealed and attempted to         In December 2010, FMCSA conducted a compliance
destroy emails, and Vincent made false statements     review of IDM Transportation, which disclosed
while testifying before a grand jury regarding        serious violations of Federal Motor Vehicle Safety
her communications with Ayache during the             Regulations. In June 2011, an Operations Out-of-
investigation.                                        Service Order was issued to IDM, which prohibited
                                                      IDM from operating in another name or through
Note: Indictments, informations, and criminal         another company. In May 2011, Isaac McWilliams
complaints are only accusations by the Government.    failed to disclose his involvement with IDM when
All defendants are presumed innocent unless and       he applied for motor carrier authority for BM&L
until proven guilty.                                  Trucking. McWilliams falsely certified to FMCSA that
                                                      he did not have, nor did he ever have, a relationship
September 24, 2013                                    with any other FMCSA-regulated entity in the
                                                      past 3 years. In May 2012, FMCSA completed an
TWO ALABAMA TRUCKING                                  investigation of BM&L and again found widespread
                                                      serious safety violations, similar to those found
COMPANY OWNERS SENTENCED                              during its review of IDM. Consequently, FMCSA
FOR VIOLATING FMCSA IMMINENT                          issued an Imminent Hazard Out-of-Service Order
HAZARD ORDER                                          to BM&L, IDM, and Isaac and Heronda McWilliams.
                                                      Despite the May 2012 order, our investigation found
Isaac and Heronda McWilliams were sentenced in        that BM&L and the McWilliamses continued to
U.S. District Court, Huntsville, AL, for conducting   operate commercial motor vehicles in commerce.
commercial vehicle operations in criminal violation
                                                      We are conducting this investigation with the
of an Imminent Hazard Out-of-Service Order issued
                                                      assistance of FMCSA and the Alabama Department
by FMCSA. Isaac McWilliams was sentenced to
                                                      of Public Safety.
4 months incarceration, and Heronda Williams was
sentenced to 24 months probation.




34  |  Audits and Investigations
Investigations

September 26, 2013
WORCESTER BUSINESSMAN
CHARGED WITH ATTEMPTED BRIBERY
Irfan Dushku was charged in U.S. District Court,
Worcester, MA, with attempting to bribe an FMCSA
Safety Inspector in order to avoid negative findings
on a safety review of his motor carrier company,
Korca Enterprises, Inc. Dushku allegedly paid $1,000
to an FMCSA Safety Inspector to produce a false
FMCSA compliance review of the company.

We are conducting the investigation jointly with
FMCSA’s Massachusetts Division.

Note: Indictments, informations, and criminal
complaints are only accusations by the Government.
All defendants are presumed innocent unless and
until proven guilty.




                                                       Semiannual Report to Congress  |  35
36  |  Audits and Investigations
IN FOCUS
KEEPING UNSAFE COMMERCIAL CARRIERS
OFF THE NATION’S HIGHWAYS
F    MSCA reported that in 2012, large
     trucks and buses were involved in
over 125,000 accidents nationwide that
                                              programs, and repeatedly violated hours
                                              of service regulations. The owner was
                                              charged, convicted, fined, and sentenced
resulted in more than 76,000 injuries         to prison for his repeated violations.
and nearly 4,100 deaths. In an effort to
reduce commercial motor vehicle-related       Despite his imprisonment, the owner
accidents, injuries, and deaths, FMCSA        initiated actions to reincarnate his
has established a variety of regulatory       outlawed firm, operating under different
plans and tactics, including technological    ownership and a different name. Again,
advancements, safety awareness                the owner was ordered to cease and
initiatives, and a vigorous roadside          desist operations for serious and pervasive
inspection program. A longstanding            safety violations and was charged and
problem in the motor carrier industry,        arrested for violations of Federal law and
and continuing hazard to the public, is       regulations. The case is still pending.
the practice of “reincarnated carriers”—      This is not an isolated case. Unscrupulous
carriers that continue to operate after       owner-operators, acting in blatant
FMCSA has ordered them to cease and           disregard for the safety of the public,
desist commercial operations, typically       continue to attempt to circumvent
for numerous and repeated serious safety      DOT’s best efforts to promote safety.
violations. To circumvent FMSCA’s order,      To counter this ongoing threat, OIG and
these carriers assume a new name and          FMCSA continue to work collaboratively
in some cases set up business in a new        to provide training and increase public
location.                                     awareness of the problem. Most recently,
OIG’s criminal investigative work             FMCSA and OIG teamed up to provide
complements FMCSA’s critical safety           training to FMCSA Division Administrators
mission of targeting unsafe commercial        and to OIG special agents across the
carriers who repeatedly fail to comply with   country. The training included information
motor carrier safety regulations. In one      on the sources of reincarnated carrier
case referred to OIG, FMCSA had initiated     complaints and the involvement of State
a safety review of an owner-operator          and local public safety officials, industry
following a multiple fatality accident        representatives, and whistleblowers. The
involving one of its drivers. The review      training also covered Federal regulations
disclosed that the carrier, in flagrant       and criminal laws often violated by
disregard of laws and regulations, failed     reincarnated carriers. It is through efforts
to maintain key safety records concerning     such as these that OIG plans to fulfill one of
its drivers and operations, failed to         our primary goals: to preserve and protect
maintain required drug and alcohol testing    public safety.




                                                             Semiannual Report to Congress  |  37
           OIG’S RAIL, MARITIME, HAZMAT TRANSPORT, AND ECONOMIC ANALYSIS
           WORK EMPHASIZES SAFETY AND ECONOMY THROUGH AUDITS OF RAIL,
           MARITIME, PIPELINES, AND HAZARDOUS MATERIALS SAFETY PROGRAMS,
           AS WELL AS ECONOMIC ANALYSIS AND SURFACE TRANSPORTATION
           FINANCING, AND THROUGH INVESTIGATIONS OF ILLEGAL PACKAGING AND
           TRANSPORTATION OF HAZMAT AND CRIMINAL VIOLATIONS OF PIPELINE
           SAFETY LAWS AND REGULATIONS




38  |  Audits and Investigations
                                                AUDITS AND INVESTIGATIONS
                                                RAIL, MARITIME, HAZMAT TRANSPORT, AND
                                                ECONOMIC ANALYSIS
                                                Audits

                                                April 17, 2013                                           July 25, 2013
                                                FRA IS NEARING COMPLETION                                ANNUAL REPORT ON AMTRAK’S
                                                OF RULES REQUIRED BY THE RAIL                            BUDGET AND 5-YEAR FINANCIAL
                                                SAFETY IMPROVEMENT ACT BUT                               PLAN
                                                NEEDS TO IMPROVE OVERSIGHT                               Required by the Passenger Rail Investment and
                                                Self-initiated                                           Improvement Act (PRIIA) of 2008

                                                The Rail Safety Improvement Act of 2008 requires         Amtrak’s 5-Year Financial Plan for fiscal years
                                                FRA to undertake several wide-ranging tasks that         2013 through 2017 overall addresses most of the
                                                broaden its safety-related responsibilities, including   requirements outlined in PRIIA but lacks some
                                                17 rules to improve railroad safety. FRA issued eight    required information. Most notably, the plan lacks
                                                of the rules and made progress on finalizing the         information on the company’s continued financial
                                                remaining nine. However, weaknesses in FRA’s             stability and several other performance metrics
                                                planning for its rulemaking work delayed rule            intended to ensure the railroad is improving its
                                                issuance. We also found that FRA did not provide         operating efficiency. Our previous assessments
                                                its oversight staff with the guidance, training, and     found similar deficiencies in prior plans. However,
                                                supervision required to oversee compliance with          this plan also omits several important PRIIA-
                                                certain rules.                                           required metrics—such as debt service costs
                                                                                                         and equipment reliability statistics—that were
                                                We made six recommendations to improve FRA’s             included in prior year plans and would demonstrate
                                                rulemaking process and strengthen the Agency’s           the extent of the railroad’s operating efficiency
                                                oversight of railroad safety. FRA concurred or           improvements.
                                                partially concurred with all six recommendations.
“RAIL YARDS” BY KAREN BLUMBERG / CC BY-NC 2.0




                                                                                                                 Semiannual Report to Congress  |  39
Audits

August 2, 2013                                         management process—when it initiated its port
                                                       infrastructure projects. In addition, inadequate
MARAD HAS TAKEN STEPS TO                               planning, lack of reliable cost estimates, and
DEVELOP A PORT INFRASTRUCTURE                          noncompliance with Federal contracting
                                                       requirements led to significant problems with Port
DEVELOPMENT PROGRAM BUT IS                             of Anchorage project contracts. While MARAD
CHALLENGED IN MANAGING ITS                             has begun implementing changes to improve
                                                       its management of the Port of Guam project—
CURRENT PORT PROJECTS                                  including better defined project responsibilities
Self-initiated (also listed under “Acquisition and     and a new management information system—
Procurement”)                                          MARAD is still in the process of developing the
                                                       congressionally mandated Port Infrastructure
In 2003, MARAD was authorized to administer            Development Program, which could provide
funds for developing and modernizing the Port of       a framework for ongoing and future port
Anchorage, the main seaport in Anchorage, AK.          infrastructure projects.
MARAD has since been authorized to administer
                                                       MARAD concurred with our nine recommendations.
two other port projects in Hawaii and Guam.
                                                       For six recommendations, MARAD provided
Between 2003 and 2011, the Port of Anchorage
                                                       appropriate action plans. For the remaining three
project’s cost estimate grew from $211 million to $1
                                                       recommendations, we are requesting that MARAD
billion, with scheduled completion slipping 8 years.
                                                       provide additional information.
We determined that MARAD lacked effective
oversight mechanisms—such as clearly defined
oversight responsibilities and an established risk




40  |  Audits and Investigations
Investigations

May 9, 2013                                             documents to conceal that these loads were being
                                                        treated at an unpermitted facility.
CHEMICAL PLANT OWNER PLEADED
                                                        We are conducting this investigation jointly with
GUILTY TO SUBMITTING FALSE                              EPA Criminal Investigative Division, Houston Police
STATEMENTS AND CAUSING THE                              Department, Texas Parks and Wildlife, and TCEQ
                                                        Criminal Enforcement.
DEATH OF AN EMPLOYEE
Mathew Bowman, owner and president of Port              May 28, 2013
Arthur Chemical and Environmental Services
(PACES), pleaded guilty in U.S. District Court,         WALMART AGREES TO PAY MORE
Beaumont, TX, to causing the death of an employee
working at the PACES facility in December 2008.
                                                        THAN $81 MILLION TO SETTLE
Bowman also pleaded guilty to creating a false          FEDERAL ENVIRONMENTAL CRIME
transportation document.                                CHARGES
This investigation was initiated in response to
                                                        In U.S. District Court, San Francisco, CA, Walmart
the deaths of two PACES employees who were
                                                        pleaded guilty to the negligent discharge of
exposed to unsafe levels of hydrogen sulfide, a
                                                        pollutants by illegally handling and disposing of
poisonous gas, which was released while they
                                                        hazardous materials at its U.S. retail stores. The
treated and processed hazardous materials. The
                                                        plea combines two cases in California and is part
investigation revealed that Bowman was directing
                                                        of a national settlement. Under the terms of
employees to load tanker trucks containing
                                                        the plea agreement, Walmart was sentenced to
hazardous waste, flammable liquids, poisonous
                                                        pay a $40 million criminal fine and an additional
gases, and caustic liquids, and transporting them
                                                        $20 million that will fund various community
between PACES and a deep well injection site
                                                        service projects, including opening a Retail
without the required identifying placards. In
                                                        Compliance Assistance Center and creating an
addition, Bowman ordered hazardous wastewater
                                                        Advanced Environmental Crimes Training Program
loads, which were received at his Houston, TX,
                                                        for State and local law enforcement officers and
facility, to be illegally transported on public roads
                                                        regulatory inspectors to aid in the investigation
without the required placards. PACES employees
                                                        of environmental crimes involving violations
accepted hazardous waste and treated it without
                                                        of the Clean Air Act, the Hazardous Materials
the proper Environmental Protection Agency (EPA)
                                                        Transportation Statute, and other Federal laws. We
or Texas Commission on Environmental Quality
                                                        participated in this portion of the investigation with
(TCEQ) permits and submitted false shipping
                                                        EPA and the FBI.




                                                                Semiannual Report to Congress  |  41
Investigations

Walmart also pleaded guilty in Kansas City, MO, to       July 31, 2013
EPA charges of violating the Federal Insecticide,
Fungicide, and Rodenticide Act by failing to             FORMER COMPANY OWNER
properly handle pesticides its customers returned.       SENTENCED FOR HAZARDOUS
Walmart paid an additional $21.6 million in criminal
and civil fines relating to these violations.            MATERIALS SAFETY VIOLATIONS
In total, Walmart will pay approximately $81.6 million   In U.S. District Court, Boston, MA, Aaron David
to settle three criminal cases, as well as a civil       Beauchesne, former owner of Beauchesne Fire
case EPA filed. The unlawful conduct included            Equipment (BFE), was sentenced to 6 months
improperly discarding hazardous wastes by placing        home confinement, 24 months probation, and
them into municipal trash bins, pouring toxic            a $100 special assessment, and required to pay
liquids into the local sewer systems, or improperly      restitution in the amount of $77,953 for his role in
transporting hazardous materials without required        violating Federal hazardous materials regulations
safety documentation to one of six U.S. product          relating to the testing and requalification of
return centers.                                          compressed gas cylinders. Nearly 6,000 cylinders,
                                                         such as those used in hospitals, were stamped
                                                         with a re-tester identification number indicating
                                                         required hydrostatic testing had been completed
                                                         when it had not. BFE was certified by the Pipeline
                                                         and Hazardous Materials Safety Administration
                                                         (PHMSA) as an approved re-qualification facility
                                                         for re-testing and re-qualifying compressed
                                                         gas cylinders. Our investigation disclosed that
                                                         throughout 2011 and continuing through early
                                                         2012, Beauchesne and BFE employees under his
                                                         direction failed to conduct hydrostatic testing on
                                                         compressed gas cylinders and failed to complete
                                                         cylinder testing data sheets.

                                                         We conducted this investigation with assistance
                                                         from PHMSA.




42  |  Audits and Investigations
Investigations

September 30, 2013                                    Borodin was charged for his role in trafficking
                                                      counterfeit airbags and the illegal shipment of
COMPANY OWNER SENTENCED                               undeclared hazardous materials in air commerce.
TO 84 MONTHS FOR ILLEGAL                              The airbag systems are designed with an incendiary
                                                      detonator. NHTSA’s testing of the counterfeit
TRANSPORTATION OF HAZARDOUS                           airbags established that the airbags are volatile
MATERIALS                                             systems capable of not deploying at all, expending
                                                      shrapnel and causing a fire, or both, when
Igor Borodin, owner of Krugger Auto, was              detonated.
sentenced in U.S. District Court, Charlotte,
NC, to serve 84 months in jail for causing the        We conducted this investigation jointly with the
criminal transportation of hazardous materials        Department of Homeland Security Investigations,
and importing counterfeit goods. Upon release         and the North Carolina Division of Motor Vehicles,
from jail, Borodin will be placed under supervised    Highway Patrol.
release for 2 years, subject to removal/deportation
to Russia. He was also ordered to pay $26,844 in
restitution and to forfeit his home—valued at over
$200,000—and $60,000 in cash.




                                                              Semiannual Report to Congress  |  43
           OIG’S FINANCIAL AND INFORMATION TECHNOLOGY WORK EMPHASIZES
           ECONOMY AND EFFICIENCY THROUGH AUDITS OF FINANCIAL STATEMENTS,
           INFORMATION TECHNOLOGY SECURITY, AND OVERSIGHT OF SINGLE AUDITS
           OF NON-FEDERAL GRANTEES EXPENDING DOT FUNDS




44  |  Audits and Investigations
                                         AUDITS AND INVESTIGATIONS
                                         FINANCIAL AND INFORMATION TECHNOLOGY
                                         Audits

                                         April 15, 2013                                        Greater Cleveland Regional Transit Authority’s
                                                                                               use of DOT grants for the fiscal year ending
                                         QUALITY CONTROL REVIEW ON THE                         December 31, 2011. During this period, the Authority
                                         SAN FRANCISCO BAY AREA RAPID                          expended more than $51 million from DOT’s grant
                                                                                               programs. C&P determined that the major DOT
                                         TRANSIT DISTRICT                                      program was the Federal Transit Cluster. We
                                                                                               determined that C&P’s audit work was Acceptable
                                         Self-initiated
                                                                                               With a Deficiency, and therefore, generally met the
                                                                                               requirements of the Single Audit Act, OMB Circular
                                         We conducted a quality control review of an
                                                                                               A-133, and DOT’s major program. We found nothing
                                         audit performed by Macias Gini & O’Connell LLP
                                                                                               to indicate that C&P’s opinion on DOT’s major
                                         (MGO) on the San Francisco Bay Area Rapid
                                                                                               program was inappropriate or unreliable.
                                         Transit District’s use of DOT grants for the fiscal
                                         year ending June 30, 2011. During this period, the
                                         District expended more than $111 million from DOT’s   June 20, 2013
                                         grant programs. MGO determined that the major
                                         DOT program was the Federal Transit Cluster. We       QUALITY CONTROL REPORT OF
                                         determined that MGO’s audit work was Acceptable
                                                                                               USRC’S FINANCIAL STATEMENTS
                                         With a Deficiency and, therefore, generally met the
                                         requirements of the Single Audit Act, the Office of   Requested by the Ranking Members of the U.S. House
                                         Management and Budget’s (OMB) Circular A-133,         Committee on Transportation and Infrastructure and
                                         and DOT’s major program. We found nothing             its Subcommittee on Economic Development, Public
                                         to indicate that MGO’s opinion on DOT’s major         Buildings, and Emergency Management
                                         program was inappropriate or unreliable.
                                                                                               We conducted a quality control review of an
                                                                                               audit performed by Rogers & Company PLLC on
                                         April 15, 2013                                        the Union Station Redevelopment Corporation’s
“CISCO” BY KEN FAGER / CC BY-NC-SA 2.0




                                         QUALITY CONTROL REVIEW ON THE                         (USRC) financial statements for fiscal years 2011 and
                                                                                               2010. The objective of the audit was to determine if
                                         GREATER CLEVELAND REGIONAL                            USRC’s financial statements were fairly presented
                                         TRANSIT AUTHORITY                                     in accordance with accounting principles generally
                                                                                               accepted in the United States. Rogers & Company
                                         Self-initiated                                        PLLC issued a clean, unqualified audit opinion on
                                                                                               USRC’s financial statements. Rogers & Company
                                         We conducted a quality control review of an audit     PLLC’s report did not include any reportable
                                         performed by Ciuni & Panichi, Inc. (C&P) on the




                                                                                                       Semiannual Report to Congress  |  45
Audits

deficiencies in internal control over financial        information, or developed a recovery plan that
reporting. Our quality control review disclosed no     meets Department requirements to ensure the
instances in which Rodgers & Company PLLC did          system is recoverable after a disaster or other
not comply in all material respects with auditing      event.
standards.
                                                       We made several recommendations for further
                                                       action, including developing procedures, policy,
June 27, 2013                                          or regulations necessary to improve the integrity
                                                       of aircraft and airmen data, and implementing
FAA’S CIVIL AVIATION REGISTRY                          controls required by the Federal Information
LACKS INFORMATION NEEDED FOR                           Security Management Act and DOT policy to
                                                       improve both its security posture and contingency
AVIATION SAFETY AND SECURITY                           plans to recover the system.
MEASURES
Self-initiated                                         July 25, 2013
FAA’s Flight Standards Service maintains the           ACTIONS NEEDED TO ENFORCE
Civil Aviation Registry to ensure that unqualified     CONTROLS OVER PURCHASE CARDS
aircraft owners and airmen do not receive aircraft
registrations or licenses. The Registry also serves    Self-initiated
as a source of information for other Government
agencies, including those responsible for homeland     Each year, DOT employees make over 300,000
security and investigations of aviation accidents      purchases, totaling about $200 million, with
and other incidents.                                   Department-issued purchase cards. While DOT
                                                       designed adequate controls to prevent and
FAA uses the Registry to process and maintain          detect erroneous purchases in the purchase card
ownership registrations on 350,000 private and         program, cardholders and approving officials did
commercial aircraft and records on pilots’ licenses.   not always adhere to these controls. Based on
However, FAA lacks critical information on non-        statistical sampling, we estimate that $58 million
citizen aircraft owners and pilot certifications to    of $277 million in purchases that DOT cardholders
ensure aviation safety. In addition, FAA has not       made between October 1, 2009, and March 31, 2011,
implemented the necessary security controls            did not comply with prescribed controls. We also
over the Registry’s configuration and account          found that FAA employees did not always enter the
management to protect personally identifiable          property they acquired with purchase cards into




46  |  Audits and Investigations
Audits

the Agency’s tracking system in accordance with         disclosure under the Freedom of Information Act. A
policy; 32 percent of the Department’s property         redacted version of our report is posted to our Web
purchases we reviewed were either not promptly          site.
recorded or not recorded at all.

We made four recommendations to DOT and                 September 23, 2013
five recommendations to FAA. Both DOT and
FAA program officials concurred with the                DOT DOES NOT FULLY COMPLY
recommendations.                                        WITH REQUIREMENTS OF THE
                                                        REDUCING OVER-CLASSIFICATION
September 10, 2013                                      ACT
SECURITY WEAKNESS IN                                    Required by the Reducing Over-Classification Act
DOT’S COMMON OPERATING
                                                        The Reducing Over-Classification Act requires
ENVIRONMENT EXPOSE ITS SYSTEMS                          Federal agencies that classify information to
AND DATA TO COMPROMISE                                  administer programs promoting compliance with
                                                        laws regarding the proper use of classification and
Self-initiated                                          to reduce over-classification. However, not all DOT
                                                        classification related policies and procedures are
DOT’s common operating environment                      effective or comply with Federal requirements,
(COE) provides the Department’s Operating               including the National Archives and Records
Administrations with IT services, such as data          Administration’s Information Security Oversight
storage, email and web application access, and          Office’s (ISOO) regulation. Specifically, DOT did
database services. DOT’s COE also provides a            not conduct comprehensive self-inspections of
centralized environment for applications that           spaces dedicated to storing classified documents;
Operating Administrations use in support of their       the Department’s classified documents were not
operations.                                             all correctly marked; DOT reports to ISOO are
The objective of our audit was to determine             not accurate; and FAA’s Order on Safeguarding
the effectiveness of COE’s information security         Classified National Security Information needs to
controls, including whether or not DOT’s COE is as      be updated to comply with ISOO requirements.
safe from compromise as possible and what, if any,      We made four recommendations to DOT and one
security vulnerabilities the COE contains. Our report   recommendation to FAA. DOT and FAA officials
contains sensitive information exempt from public       concurred with all recommendations.




                                                                Semiannual Report to Congress  |  47
           OIG’S ACQUISITION AND PROCUREMENT WORK EMPHASIZES ECONOMY
           AND EFFICIENCY THROUGH AUDITS OF THE DEPARTMENT’S ACQUISITIONS,
           CONTRACTS, AND FINANCIAL ASSISTANCE AGREEMENTS, AND THROUGH
           INVESTIGATIONS OF FALSE STATEMENTS AND CLAIMS, BRIBERY, AND
           CONFLICTS OF INTEREST




48  |  Audits and Investigations
                                              AUDITS AND INVESTIGATIONS
                                              ACQUISITION AND PROCUREMENT
                                              Audits

                                              In addition to directing its own audits, OIG’s Office of Acquisition and Procurement partners with
                                              other OIG offices to provide acquisition expertise and audit work on a broad and cross-cutting
                                              range of reports related to our aviation; highway and transit; rail, maritime, and hazmat transport;
                                              and information technology work. Leveraging OIG’s acquisition expertise across all audit groups
                                              ensures consistent and thorough reviews of acquisition matters throughout the Department
                                              and with its grantees. Our comprehensive approach focuses on the strategic significance of
                                              promoting effective oversight of the Department’s acquisitions, contracts, and financial assistance
                                              arrangements.

                                              April 23, 2013                                        part on systematic procedures to ensure only
                                                                                                    DBE-certified firms participate in the program.
                                              WEAKNESSES IN THE DEPARTMENT’S                        While DOT places this responsibility primarily
                                              DISADVANTAGED BUSINESS                                on recipients—State and local transportation
                                                                                                    agencies—the program also requires Department
                                              ENTERPRISE PROGRAM LIMIT                              leadership, guidance, and oversight. However,
                                              ACHIEVEMENT OF ITS OBJECTIVES                         DOT has not issued comprehensive, standardized
                                                                                                    DBE guidance; provided sufficient training to
                                              Self-initiated                                        the recipients that implement the program; or
                                                                                                    established program accountability. The recipients’
                                              DOT’s DBE program was created to help provide         weak DBE certification and contract oversight
                                              contracting opportunities to socially and             practices increase the risk of fraud and abuse for
                                              economically disadvantaged individuals who            the program. Finally, the Department has had
                                              own and control small businesses. In fiscal years     limited success in achieving its program objective to
                                              2009 through 2012, the Department distributed         develop DBE firms to succeed in the marketplace,
                                              an average of approximately $4 billion annually
“SIGNATURE” BY SEBASTIEN WIERTZ / CC BY 2.0




                                                                                                    as we found that most certified DBEs never receive
                                              to DBEs. During this period, DBE fraud and abuse      work on Federal projects.
                                              cases increased significantly. Currently, DBE cases
                                              represent 36 percent of OIG active procurement        We made eight recommendations aimed at
                                              and grant fraud investigations.                       enhancing DOT’s DBE program management and
                                                                                                    oversight.
                                              The DBE program’s integrity depends in large




                                                                                                            Semiannual Report to Congress  |  49
Audits

August 5, 2013                                          improve DOT’s compliance with the revised FAR
                                                        requirements on the use and management of
DOT DOES NOT FULLY COMPLY                               cost-reimbursement awards. OSPE concurred
                                                        with four recommendations but requested that
WITH REVISED FEDERAL                                    the remaining recommendation be made to the
ACQUISITION REGULATIONS ON                              Maritime Administrator. OSPE has reconsidered,
THE USE AND MANAGEMENT OF                               and the Senior Procurement Executive has directed
                                                        MARAD contracting officials to address the
COST-REIMBURSEMENT AWARDS                               remaining recommendation.
Required by the Duncan Hunter National Defense
Authorization Act for Fiscal Year 2009                  August 2, 2013
DOT obligates hundreds of millions of dollars           MARAD HAS TAKEN STEPS TO
in high-risk cost-reimbursement contracts each
year. As required by the Duncan Hunter Act, the
                                                        DEVELOP A PORT INFRASTRUCTURE
Federal Acquisition Regulation (FAR) provides           DEVELOPMENT PROGRAM BUT IS
new guidance aimed at improving the use and             CHALLENGED IN MANAGING ITS
management of these contracts. However, the six
DOT Operating Administrations we reviewed do
                                                        CURRENT PORT PROJECTS
not fully comply with the revised FAR requirements
                                                        Self-initiated (also listed under “Rail, Maritime,
related to acquisition planning and documenting
                                                        Hazmat Transport, and Economic Analysis”)
justifications. In addition, they do not consistently
assess oversight risks, properly designate oversight    In 2003, MARAD was authorized to administer
personnel, or verify that contractors’ accounting       funds for developing and modernizing the Port
systems are adequate to provide valid and               of Anchorage, the main seaport in Anchorage,
reliable cost data. The Operating Administrations’      AK. MARAD has since been authorized to
noncompliance is primarily attributable to the          administer two other port projects in Hawaii
Department’s lack of internal guidance for              and Guam. Between 2003 and 2011, the Port of
implementing the new requirements and lack              Anchorage project’s cost estimate grew from $211
of oversight needed to verify Departmentwide            million to $1 billion, with scheduled completion
compliance.                                             slipping 8 years. We determined that MARAD
We made five recommendations to the Office              lacked effective oversight mechanisms—such as
of the Senior Procurement Executive (OSPE) to           clearly defined oversight responsibilities and an
                                                        established risk management process—when it




50  |  Audits and Investigations
Audits

initiated its port infrastructure projects. In addition,   September 26, 2013
inadequate planning, lack of reliable cost estimates,
and noncompliance with Federal contracting                 MANAGEMENT ADVISORY:
requirements led to significant problems with Port
of Anchorage project contracts. While MARAD
                                                           SUSPENDED OR DEBARRED
has begun implementing changes to improve its              FIRMS ARE LISTED ON STATE DBE
management of the Port of Guam project—including           DIRECTORIES AS ELIGIBLE FOR DBE
better defined project responsibilities and a new
management information system—MARAD is still               PARTICIPATION
in the process of developing the congressionally
                                                           Self-initiated
mandated Port Infrastructure Development
Program, which could provide a framework for               During our recent audit of the Department’s DBE
ongoing and future port infrastructure projects.           program and our ongoing audit of its Suspension
MARAD concurred with our nine recommendations.             and Debarment (S&D) Program, we identified three
For six recommendations, MARAD provided                    suspended or debarred firms that are currently listed
appropriate action plans. For the remaining three          in State DBE directories as eligible to participate
recommendations, we are requesting that MARAD              in the DBE program. Federal regulations explicitly
provide additional information.                            prohibit suspended or debarred firms from receiving
                                                           federally funded contracts. DOT lacks sufficient
                                                           guidance to help State and local transportation
                                                           agencies safeguard against awarding Federal
                                                           funds through the DBE program to firms that
                                                           are suspended or debarred. Deficiencies in State
                                                           DBE certification and oversight processes further
                                                           increase the risk that DBE work may be awarded
                                                           to suspended or debarred firms. We informed the
                                                           Department of these weaknesses and alerted it
                                                           to the possibility that other ineligible firms may
                                                           be listed on State DBE directories or erroneously
                                                           granted DBE status.




                                                                     Semiannual Report to Congress  |  51
Investigations

May 17, 2013                                            falsely claimed DBE status on federally funded
                                                        transportation projects. The investigation revealed
OWNER OF STATEN ISLAND-                                 that Aziz represented himself on paper as the
BASED CONSTRUCTION COMPANY                              owner and president of TesTech, which was actually
                                                        owned by David and Sheri Oakes, to convince the
SENTENCED FOR ROLE IN DBE SCHEME                        Federal Government that TesTech was eligible for
                                                        special Federal contracting preference under DOT’s
Madeline Pepe, owner of Staten Island-based
                                                        DBE program.
MS Construction Corporation (MSC), was
sentenced in U.S. District Court, Manhattan, NY,        We conducted this investigation with the U.S.
to 2 years probation and a $50,000 forfeiture. On       Attorney’s Office, Columbus, OH; and Ohio DOT.
March 5, 2012, Pepe pleaded guilty to conspiracy
to commit mail and wire fraud charges. Between
approximately 1994 and March 2011, Pepe                 July 11, 2013
participated in a conspiracy to use MSC as a front
DBE for several non-minority firms performing
                                                        OWNER OF TRUCKING FIRM
work on multiple FHWA-funded New York State             AGREES TO CIVIL SETTLEMENT FOR
DOT and New York City DOT projects, and an FAA-         DBE FRAUD
funded Port Authority of New York and New Jersey
project. MSC did not perform a commercially useful      Benjamin Marshall, owner of BN&M Trucking,
function. The amount of the affected subcontracts       agreed to pay a civil settlement of $12,000 to the
totals approximately $2 million. We are investigating   U.S. Government for certifying he performed work
this case jointly with the Department of Labor          fulfilling a DBE goal when he did not. In June 2006,
OIG, the Port Authority of New York and New             John Carlo, Inc. (JCI), the prime contractor on
Jersey OIG, and the New York City Department of         an FAA-funded runway construction project for
Investigation.                                          the Wayne County Detroit Metropolitan Airport,
                                                        was responsible for ensuring DBEs performed
                                                        commercially useful functions. Between
June 6, 2013                                            January 2005 and December 2010, JCI submitted
OHIO DBE AGREES TO $2.88 MILLION                        false claims on the project, which indicated that
                                                        services were provided by BN&M when they were
CIVIL SETTLEMENT                                        provided by a non-DBE subcontractor, the prime
                                                        contractor, or both—a violation of DBE regulations
In Dayton, OH, developers David and Sheri
                                                        and the False Claims Act.
Oakes, along with former business partner Sherif
Aziz, doing business as TesTech, Inc., agreed to        We conducted this investigation jointly with the
pay $2,883,947 to resolve allegations that they         U.S. Attorney’s Office, Civil Division.




52  |  Audits and Investigations
Investigations

July 24, 2013                                            September 19, 2013
PAVING COMPANY AND                                       CONSTRUCTION CONTRACTOR
INDIVIDUALS CHARGED IN DBE                               CONVICTED OF DBE FRAUD
SCHEME                                                   Elaine Martin, of Meridian, ID, and former president
Boggs Paving Inc.; Carl “Drew” Boggs; Kevin Hicks;       and majority stockholder of MarCon, Inc., was
Greg Miller; Greg Tucker; Styx Cuthbertson Trucking      convicted by a Federal jury in Boise, ID, on multiple
Company, Inc.; and John Cuthbertson were charged         charges, including filing false individual and
in U.S. District Court, Charlotte, NC, for their roles   corporate tax returns, conspiracy, wire fraud, mail
in a DBE fraud scheme involving over $87 million         fraud, false statements, and obstruction of justice.
in federally funded and State-funded contracts.          Martin’s co-defendant, Darrell Swigert, of Boise and
The indictment alleges that from 2003, Boggs             a minority shareholder in Marcon, was also found
Paving fraudulently obtained contracts by falsely        guilty.
certifying that Styx would perform work as a DBE         Martin submitted false and fraudulent applications
or a Small Business Enterprise (SBE). However,           to qualify Marcon, a construction company, for
Styx was used as a pass-through entity to obtain         two federally funded programs: the Small Business
these contracts, and the majority of the work was        Administration (SBA) 8(a) Program, and DOT’s
performed by Boggs Paving affiliates. The indictment     DBE Program. Both programs are designed to help
also alleges that a bank account in Styx’s name          economically and socially disadvantaged businesses
was used to deposit the DBE and SBE payments             compete in the marketplace. To be admitted
to give the appearance that it was receiving             into the programs, applicants must demonstrate
the payments, when the account was actually              economic disadvantage, in part by having a personal
controlled by Boggs Paving and the majority of the       net worth below a certain statutory cap. Evidence
payments were funneled back to Boggs Paving              presented at trial showed that Martin took steps to
affiliates. Additionally, Boggs Paving made false and    artificially lower her personal net worth and appear
misleading statements to North Carolina DOT, South       economically disadvantaged, such as acquiring,
Carolina DOT, and other Federal grant-receiving          holding, and transferring assets into the names of
entities on DBE applications, renewal statements,        nominees.
and DBE payment certifications.
                                                         We conducted this investigation jointly with the FBI,
Note: Indictments, informations, and criminal            IRS, and SBA OIG.
complaints are only accusations by the Government.
All defendants are presumed innocent unless and until
proven guilty. 




                                                                  Semiannual Report to Congress  |  53
           THE OFFICE OF INSPECTOR GENERAL CONDUCTS AUDITS AND
           INVESTIGATIONS OF DEPARTMENTWIDE ISSUES THAT ARE EITHER
           SELF-INITIATED OR IN RESPONSE TO REQUESTS FROM CONGRESS AND
           THE DEPARTMENT




54  |  Audits and Investigations
                                                                                      AUDITS AND INVESTIGATIONS
                                                                                      DEPARTMENTWIDE ISSUES
                                                                                      Audits

                                                                                      May 15, 2013                                           June 27, 2013
                                                                                      LETTER TO SENATOR SHAHEEN                              LETTER TO CHAIRMAN ISSA AND
                                                                                      REGARDING THE IMPACT OF                                RANKING MEMBER CUMMINGS
                                                                                      SEQUESTRATION ON DOT OIG’S                             ON OIG’S OPEN AUDIT
                                                                                      ABILITY TO OVERSEE GOVERNMENT                          RECOMMENDATIONS
                                                                                      SPENDING                                               Requested by Chairman Darrell Issa and Ranking
                                                                                      Requested by Senator Jeanne Shaheen                    Member Elijah Cummings, House Committee on
                                                                                                                                             Oversight and Government Reform
                                                                                      In response to Senator Shaheen’s request for
                                                                                      information on sequestration’s impact on our           On June 17, 2013, the Chairman and Ranking
                                                                                      oversight of DOT spending, we highlighted              Member requested that we provide detailed
                                                                                      cost-cutting actions we have taken prior to and        information on the status of our open audit
                                                                                      following the enactment of the Budget Control Act      recommendations. In response, we reported
                                                                                      in August 2011 to minimize the act’s impact. We also   that as of June 18, 2013, 544 recommendations—
“T2010 09 16 - 4759-4761 - WASHINGTON DC - USDOT” BY ANDREW BOSSI / CC BY-NC-SA 2.0




                                                                                      described the oversight challenges we now face         included in 198 audit reports issued between
                                                                                      and the expected long-term impact on our ability to    September 30, 2004, and June 18, 2013—remained
                                                                                      maximize our return on investment and help ensure      open. Of these 544 recommendations, 45, which
                                                                                      the Nation’s transportation systems are safe and       were included in 39 reports, carry potential
                                                                                      effective.                                             monetary benefits or cost savings totaling more
                                                                                                                                             than $4.9 billion. As requested, we identified the
                                                                                                                                             three most significant open recommendations—
                                                                                                                                             one from each of these reports: FAA and Industry
                                                                                                                                             Are Taking Action To Address Pilot Fatigue, but
                                                                                                                                             More Information on Pilot Commuting Is Needed;
                                                                                                                                             Assessment of FHWA Oversight of the Highway
                                                                                                                                             Bridge Program and the National Bridge Inspection
                                                                                                                                             Program; and Timely Actions Needed To Improve
                                                                                                                                             DOT’s Cybersecurity. Our selection was based on
                                                                                                                                             the recommendations’ impact on safety, economy,
                                                                                                                                             or efficiency; documented vulnerabilities; and the
                                                                                                                                             ability of the Department to effect change in these
                                                                                                                                             programs or areas.




                                                                                                                                                     Semiannual Report to Congress  |  55
          OIG’S OTHER ACCOMPLISHMENTS AND CONTRIBUTIONS ARE THOSE THAT
          EXTEND BEYOND THE LEGAL REPORTING REQUIREMENTS OF THE INSPECTOR
          GENERAL ACT




56  |  Other Accomplishments
                                          OTHER ACCOMPLISHMENTS



                                          April 15 – 26, 2013                                 May 30, 2013
                                          ASSISTANCE IN THE BOSTON                            FRAUD AWARENESS BRIEFING
                                          MARATHON BOMBING                                    Two special agents in charge from OIG’s New York
                                          INVESTIGATION                                       and Cambridge Investigations offices conducted a
                                                                                              fraud awareness briefing focusing on the Tappan
                                          Special agents in OIG’s Investigations office,      Zee Bridge replacement project. The project is
                                          Cambridge, MA, assisted the FBI and other law       estimated to cost $4 billion to $5 billion to complete
                                          enforcement agencies with the the Boston            and will receive substantial FHWA funding in
                                          Marathon bombing investigation. Agents              the form of a loan and possibly direct grants.
                                          conducted interviews, prepared interview reports,   Approximately 75 FHWA and New York State
                                          and collected hundreds of pieces of digital video   Thruway Authority employees in Westchester, NY,
                                          and photo evidence from numerous sources.           attended.


                                          May 23, 2013                                        June 5, 2013
                                          FEDERAL NEWS RADIO INTERVIEW                        PRESENTATION ON DOT’S
                                          ON FHWA’S ARRA OVERSIGHT                            ACQUISITION WORKFORCE
                                          The Assistant Inspector General for Highway and     The Assistant Inspector General for Acquisition
                                          Transit Audits discussed OIG’s findings from an     and Procurement Audits and program directors
                                          audit entitled, Lessons Learned from ARRA Could     from that office gave a presentation on
                                          Improve FHWA’s Use of Full Oversight, on Federal    “Working Together to Empower the Acquisition
                                          News Radio’s “In Depth” program.                    Workforce and Save Taxpayer Dollars” at DOT’s
                                                                                              annual Acquisition and Financial Management
“ON AIR” BY OCV PHOTO / CC BY-NC-SA 2.0




                                                                                              Conference—the main forum for the Department’s
                                                                                              acquisition professionals to share information and
                                                                                              keep abreast of trends in Federal acquisition and
                                                                                              procurement. About 250 DOT officials attended.




                                                                                                      Semiannual Report to Congress  |  57
June 7, 2013                                        DOT’s and FAA’s IT system governance process. The
                                                    1-day conference was attended by more than 580
PRESENTATION AT RTCA’S ANNUAL                       individuals in the Federal audit community.
SYMPOSIUM
                                                    August 1, 2013
The Deputy Assistant Inspector General for OIG’s
Aviation office gave a presentation at RTCA’s       TRAINING ON MAJOR
Annual Symposium on key issues facing FAA and
the aviation industry as NextGen advances. The      ACQUISITION AUDIT STEPS
Deputy Assistant Inspector General emphasized the
                                                    A program director from OIG’s Acquisition and
need for FAA to better define expected outcomes
                                                    Procurement office provided a training session on
from investments and seek ways to control rising
                                                    “Audit Steps for a Major Acquisition” at FAEC’s
operating costs. The conference was attended
                                                    bi-monthly meeting, held at the National Science
by aircraft and avionics manufacturers, trade
                                                    Foundation Headquarters in Arlington, VA.
associations, and airlines.
                                                    Approximately 110 auditors and analysts attended.

June 12, 2013                                       September 9, 2013
PRESENTATIONS AT ANNUAL                             PRESENTATION AT NEXTGEN AHEAD
PROCUREMENT AUDIT TRAINING                          CONFERENCE
CONFERENCE
                                                    The Deputy Assistant Inspector General for OIG’s
OIG’s Acquisition and Procurement office assisted   Aviation office gave a presentation on “Where
in organizing and presenting speakers at the        FAA’s NextGen Efforts Fit in the Fiscal Budget”
2013 Federal Audit Executive Council (FAEC)         at Aviation Week and Space Technology’s
Procurement Audit Training Conference, hosted       NextGen Ahead Conference. The conference was
by the Council of Inspectors General on Integrity   attended by U.S. and foreign aerospace firms and
and Efficiency. Several managers and staff from     Government agencies, including the Department of
the acquisition group and a manager from OIG’s      Defense.
Aviation office led training sessions on an FAA
major system acquisition, DOT’s DBE Program, and




58  |  Other Accomplishments
September 16, 2013
PARTICIPATION ON A DBE
PROGRAM DEVELOPMENT PANEL
A program director from OIG’s Acquisition
and Procurement office participated in a panel
discussion on “Disadvantaged Business Enterprise
Program Development” at the Fourth Annual
FAA National Civil Rights Training Conference for
Airports in Arlington, VA. Over 150 participants
attended.


September 23, 2013
PRESENTATION ON OIG’S ROLE
AND RAIL WORK
The Assistant Inspector General for Rail, Maritime,
and Hazmat Transport Audits, and Economic
Analysis gave a presentation at the American
Association of State Highway and Transportation
Officials’ Annual Standing Committee on Rail
Transportation Conference. The presentation
included information regarding the role of OIG
as well as recently issued, ongoing, and planned
projects. Approximately 200 State highway and
transportation officials attended.




                                                      Semiannual Report to Congress  |  59
60  |  Work Planned and In Progress
                                                                                     WORK PLANNED AND IN PROGRESS
                                                                                     This section describes OIG’s work planned or in progress for October 1, 2013, through March 31, 2014.
                                                                                     The work focuses on the Department’s Strategic Plan and responds to requests by Congress and
                                                                                     Administration officials. We take into account the need to support DOT’s most critical programs and
                                                                                     to ensure that the Department’s resources are protected from fraud, waste, and abuse.


                                                                                     AVIATION
                                                                                     In Progress

                                                                                     CHALLENGES AND RISKS                                    UNDERLYING CAUSES FOR LIMITED
                                                                                     WITH AUTOMATIC DEPENDENT                                PROGRESS WITH NEXTGEN
                                                                                     SURVEILLANCE-BROADCAST (ADS-B)                          Since the NextGen effort began in 2005, OIG has
                                                                                     IMPLEMENTATION                                          repeatedly reported on program cost and schedule
                                                                                                                                             risks as well as operational and management
                                                                                     At the request of the Chairman and Ranking              challenges. These longstanding concerns prompted
                                                                                     Minority Member of the House Committee on               OIG to identify the development and execution
                                                                                     Appropriations, Subcommittee on Transportation,         of NextGen as one of the Department’s top
                                                                                     Housing and Urban Development, and
“MANCHESTER AIRPORT SHOTS” BY KATE JOHNSON (WWW.KAJOPHOTO.CO.UK) / CC BY-NC-ND 2.0




                                                                                                                                             management challenges. During recent hearings
                                                                                     Related Agencies, and as required by the FAA            on NextGen, Congress indicated its growing
                                                                                     Modernization and Reform Act of 2012, we are            concern with NextGen’s lack of progress. At the
                                                                                     conducting an annual review of ADS-B—a key              request of the Chairman and Ranking Members
                                                                                     NextGen component that is expected to leverage          of the House Committee on Transportation and
                                                                                     satellite-based technology, aircraft avionics, and      Infrastructure and its Subcommittee on Aviation,
                                                                                     ground-based systems to provide information to          we are (1) assessing FAA’s progress with meeting
                                                                                     pilots and air traffic controllers on the position of   key milestones for achieving NextGen capabilities,
                                                                                     aircraft in all phases of flight. Our audit objective   (2) examining possible underlying causes for FAA’s
                                                                                     is to assess FAA’s progress with mitigating risks       limited progress with advancing NextGen overall,
                                                                                     and addressing challenges associated with               and (3) reviewing FAA’s recent reorganization and
                                                                                     implementing ADS-B.                                     other efforts to improve the management and
                                                                                                                                             execution of NextGen initiatives.




                                                                                                                                                     Semiannual Report to Congress  |  61
In Progress

FAA’S EFFORTS TO STREAMLINE                            FAA’S OVERSIGHT OF THE
ITS PROCESS FOR IMPLEMENTING                           VOLUNTARY DISCLOSURE
NEW PERFORMANCE-BASED FLIGHT                           REPORTING PROGRAM
PROCEDURES                                             In 2006, FAA established the Voluntary Disclosure
In 2009, RTCA Task Force 5—a joint FAA-industry task   Reporting Program (VDRP), which allows air
force—completed an assessment and identified           carriers to voluntarily report adverse safety issues
near-term performance-based flight procedure           to the Agency in exchange for immunity from FAA
priorities for the 2012 to 2018 timeframe. Key         enforcement actions. While this program provides
recommendations focus on developing high-value         an important opportunity to identify and mitigate
flight procedures that rely on equipment already       safety issues that might not otherwise come to
onboard aircraft and resolving longstanding            FAA’s attention, it also requires close monitoring
approval and certification issues for new flight       to ensure the program is not misused. The FAA
procedures. In response to the Task Force’s            Modernization and Reform Act of 2012 included
recommendations, FAA performed a study                 a mandate that OIG examine FAA’s oversight of
that identified 21 improvements needed to              VDRP. Accordingly, our audit objectives are to
implement the recommendations. However,                determine whether FAA (1) ensures air carrier
these improvements could take several years            disclosure reports meet VDRP requirements,
to complete, and new flight procedures are not         including the development and implementation of
yet yielding expected benefits throughout the          effective corrective actions, and (2) uses VDRP data
National Airspace System, raising congressional and    to identify safety risks.
industry concern. At the request of the Chairman
of the House Transportation and Infrastructure
Committee and the Chairman and Ranking Member
of the Subcommittee on Aviation, we are assessing
FAA’s progress in (1) providing new high-value
performance-based navigation procedures and (2)
implementing improvements recommended by
FAA’s study.




62  |  Work Planned and In Progress
In Progress

AIR CARRIER FLIGHT DELAYS,                             of the House Transportation and Infrastructure
                                                       Committee and its Subcommittee on Aviation,
CANCELLATIONS, AND ASSOCIATED                          we are assessing FAA’s (1) efforts to mitigate
CAUSES                                                 safety risks for integrating UAS into the National
                                                       Airspace System and (2) progress in meeting the
The FAA Modernization and Reform Act of 2012           UAS requirements of the FAA Modernization and
directed OIG to update its July 2000 report on air     Reform Act of 2012.
carrier flight delays and cancellations. As part of
this effort, we are assessing FAA’s and the Bureau     AIR TRAFFIC CONTROLLER
of Transportation Statistics’ progress in addressing
our prior report findings and recommendations.
                                                       PRODUCTIVITY
We are also (1) comparing recent flight delay and
                                                       Since 2000, air traffic operations have dropped
cancellation trends with prior problem periods,
                                                       by 21 percent while controller staffing levels
(2) examining air carrier scheduling practices
                                                       have remained essentially unchanged, resulting
and their relative impact in causing flight delays
                                                       in controller productivity dropping by nearly
and cancellations, and (3) assessing FAA’s use of
                                                       23 percent over this timeframe. FAA introduced
capacity benchmarks to help manage air traffic at
                                                       several initiatives in its initial controller workforce
the Nation’s busiest airports.
                                                       plan that it stated would improve operational
                                                       productivity and encourage efficiency within
FAA POLICY REGARDING USE OF                            the controller workforce. However, it is unclear
UNMANNED AIRCRAFT SYSTEMS                              whether these initiatives are achieving promised
(UAS)                                                  efficiencies. We plan to review operational
                                                       data to (1) identify controller productivity and
At the request of the Chairmen and Ranking             factors that may impact controller productivity
Members of the Senate Committee on Commerce,           and (2) determine whether FAA’s productivity
Science, and Transportation and its Subcommittee       and efficiency initiatives are producing desired
on Aviation Operations, Safety, and Security,          outcomes.
as well as the Chairmen and Ranking Members




                                                                Semiannual Report to Congress  |  63
In Progress

FAA-NATCA COLLECTIVE                                    FAA’S SURFACE SURVEILLANCE
BARGAINING AGREEMENT                                    PROGRAMS FOR RUNWAY SAFETY
EXTENSION                                               Preventing aircraft ground collisions and runway
Effective October 1, 2012, FAA and the National         incursions has been on NTSB’s “Most Wanted
Air Traffic Controllers Association (NATCA) agreed      Transportation Safety Improvements List” since
to extend their existing collective bargaining          1990. NTSB recommended that FAA require ground
agreement through July 1, 2016. This agreement          movement safety systems at airports to prevent
extends the original 3-year agreement and includes      collisions and provide direct warnings to flight
a memorandum of understanding covering pay. Our         crews. In response, FAA designed Airport Surface
objectives are to (1) identify provisions in the 2012   Detection Equipment-Model X (ASDE-X). We are
collective bargaining agreement extension that put      assessing FAA’s progress in integrating ASDE-X with
FAA at risk for unanticipated costs and (2) assess      other runway safety technologies, such as runway
the effectiveness of FAA’s policies, procedures, and    status lights and ADS-B to improve runway safety.
internal controls in preventing cost escalations.
                                                        PROGRESS IN MEETING NEXTGEN
FAA’S EFFORTS TO ADDRESS                                PROVISIONS OF THE FAA
RUNWAY INCURSIONS                                       MODERNIZATION AND REFORM ACT
After FAA implemented initiatives from its
                                                        OF 2012
August 2007 Call to Action Plan for Runway Safety,      From fiscal years 2013 through 2017, FAA plans
the number of runway incursions decreased.              to spend $2.4 billion on NextGen, a program
However, this trend is reversing. The total             intended to transform the Nation’s air traffic
number of all runway incursions increased 21            control system. FAA’s Modernization and Reform
percent between fiscal years 2011 and 2012, from        Act of 2012 includes provisions that are intended
954 to 1,150. The Ranking Member of the House           to help FAA better manage NextGen and advance
Transportation and Infrastructure Committee,            new technologies. At the request of the Chairmen
Aviation Subcommittee, requested that we                of the House Transportation and Infrastructure
examine FAA’s Runway Safety Program and                 Committee and its Subcommittee on Aviation,
its actions to improve safety. Accordingly, our         we plan to review FAA’s progress and challenges
objectives are to evaluate FAA’s (1) progress           in meeting the NextGen provisions prescribed in
in implementing initiatives to prevent runway           Title II of the act.
incursions and (2) effectiveness in reporting and
evaluating runway incursions.




64  |  Work Planned and In Progress
In Progress

FAA OVERSIGHT OF EUROPEAN                              FAA’S OVERSIGHT OF THE
UNION REPAIR STATIONS                                  HAZARDOUS MATERIALS
On May 1, 2013, FAA completed its transfer of direct
                                                       VOLUNTARY DISCLOSURE
oversight of repair stations in the European Union     REPORTING PROGRAM
(EU) to the national aviation authorities of those
countries. These authorities will be responsible       Each year, over 50,000 routine providers of
for monitoring over 400 FAA-certificated repair        hazardous materials ship hazmat packages by air
stations located in 18 EU countries. Our objectives    on more than 600 U.S. and foreign air carriers.
are to (1) assess the Agency’s monitoring of           Hazmat air shipments can present serious safety
FAA-certificated repair stations operating under       risks—especially when the hazardous materials
the US-EU Aviation Safety Agreement to ensure          are unauthorized and undeclared. To help address
they meet Agency standards and (2) evaluate            safety concerns raised by hazmat shipments by air,
the effectiveness of FAA’s process to transfer         FAA established the Hazardous Materials Voluntary
oversight of EU repair stations to national aviation   Disclosure Reporting Program (HM VDRP) in 2006.
authorities.                                           By allowing air carriers to voluntarily disclose
                                                       violations of hazardous materials regulations
DOT OVERSIGHT AND                                      without receiving civil penalties, the program
                                                       provides an important opportunity to identify
ENFORCEMENT OF LONG,                                   and mitigate hazmat safety issues that might
ONBOARD FLIGHT DELAYS                                  not otherwise come to the Agency’s attention.
                                                       Accordingly, our audit objectives are to determine
Our work over the past decade has consistently         whether FAA (1) ensures that air carriers’ disclosure
shown that strong oversight of airline passenger       reports meet HM VDRP requirements, including
protections is needed. We recommended several          the development and implementation of effective
actions that DOT has taken to strengthen the           corrective actions, and (2) uses HM VDRP data
accountability, enforcement, and protection            to identify safety risks, including risks from
afforded to air travelers. We are assessing the        unauthorized, undeclared shipments.
effectiveness of DOT’s oversight and enforcement
of airlines’ and airports’ compliance with
requirements relating to long, onboard flight
delays.




                                                               Semiannual Report to Congress  |  65
Planned

FAA PROGRESS IN REDUCING                              FAA OVERSIGHT OF COCKPIT
HELICOPTER EMERGENCY MEDICAL                          AUTOMATION AND PILOT
SERVICES ACCIDENTS                                    PERFORMANCE
The Helicopter Emergency Medical Services             Commercial airline pilots rely on sophisticated
(HEMS) industry transports over 400,000 patients      cockpit automation to fly aircraft in all phases
in the United States each year, as well as life-      of flight. According to a recent FAA study, the
saving donor organs and blood to emergency            growing adherence to computer-assisted flying—
care facilities. HEMS vehicles frequently operate     and the confusion that can result when pilots fail
in high-risk flight environments, including night     to keep up with computer advances—increasingly
flight, poor weather and visibility, and unfamiliar   are considered major factors in airline crashes
landing sites. Since the mid-1990s, the number of     worldwide. This drive in innovation and cockpit
helicopters providing emergency medical services      automation is limiting the opportunities pilots
nationwide has grown nearly 300 percent, and the      have to maintain their flying skills. We plan to
HEMS accident rate has almost doubled over that       evaluate the effectiveness of FAA’s oversight of
time. The House Committee on Transportation           pilot training programs in assessing pilots’ ability
and Infrastructure requested that we review FAA’s     to fly without automation and maintain control of
progress in improving HEMS safety. We plan to         aircraft in unanticipated flight conditions.
evaluate FAA’s efforts in meeting requirements
established for emergency helicopter operations in
the FAA Modernization and Reform Act of 2012 and
the status of FAA’s voluntary efforts to reduce the
HEMS accident rate.




66  |  Work Planned and In Progress
Planned

FAA DATA COMMUNICATIONS                                    FAA’S ORGANIZATION
Data Communications (DataComm), a NextGen
                                                           DESIGNATION AUTHORIZATION
transformational program, is expected to provide           Delegating authority to certify of aircraft and
digital communications with data link capability           their continued airworthiness is a longstanding
for routine pilot-controller communications,               and essential practice in aviation, as FAA does
including air traffic clearances, advisories, and flight   not have the staff to oversee every facet of a
crew requests and reports. Airspace users have             diverse industry. Moreover, the law allows FAA to
raised significant concerns about DataComm’s               delegate certain functions to private individuals
development. We plan to conduct an audit to                or organizations that perform certification work,
(1) determine whether FAA’s acquisition strategy           such as approving elements of new aircraft designs,
for DataComm addresses cost, schedule, and                 on behalf of the Agency. In 2005, FAA created
performance risks associated with FAA’s NextGen            the Organization Designation Authorization
plans and goals and (2) identify any difficulties          (ODA) Program to consolidate various types of
or uncertainties in integrating new DataComm               organizational delegations under one program and
services with existing or planned automation               standardize oversight. We plan to assess (1) the
platforms, such as STARS and ERAM.                         status of the ODA program, including the roles of
                                                           Government and industry stakeholders, and (2)
                                                           the effectiveness of program controls and FAA’s
                                                           oversight.




                                                                   Semiannual Report to Congress  |  67
68  |  Work Planned and In Progress
                                                                               HIGHWAY AND TRANSIT

                                                                               In Progress

                                                                               FEDERAL LANDS HIGHWAY’S TRIBAL                          FOLLOW-UP AUDIT ON
                                                                               TRANSPORTATION PROGRAM                                  CROSS-BORDER TRUCKING
                                                                               The Tribal Transportation Program (TTP) provides        The Fiscal Year 2002 Department of Transportation
                                                                               financial resources and technical assistance for        Appropriations Act and subsequent appropriations
                                                                               public roads that service the needs of Indian           legislation through 2012 mandate OIG to review the
                                                                               lands. For fiscal years 2005 through 2012, the          safety requirements related to Mexico-domiciled
                                                                               program received $3.5 billion, including $310 million   motor carrier operations. In accordance with this
                                                                               provided by ARRA. Our objectives are to assess          legislation, our audit objectives are to determine
                                                                               whether FHWA’s Office of Federal Lands Highway          whether FMCSA (1) continues to comply with the
                                                                               is (1) effectively coordinating with the Bureau of      safety requirements set forth in Section 350(c)
                                                                               Indian Affairs to administer and manage TTP and         and (2) has taken sufficient action to implement
                                                                               (2) providing adequate oversight of TTP projects        our prior recommendations for improving its
                                                                               under agreements with tribes.                           capacity to perform bus inspections at U.S.-Mexico
                                                                                                                                       border crossings. This is a follow-up audit on
                                                                               FTA’S NATIONAL TRANSIT DATABASE                         FMCSA’s implementation of NAFTA’s cross-border
                                                                                                                                       provisions.
“BRIDGE REPLACEMENT PROJECT IN THE DALLES, OREGON” BY OREGON DOT / CC BY 2.0




                                                                               The National Transit Database (NTD) was
                                                                               established to be the Nation’s primary source of        FHWA’S WORKFORCE PLANNING
                                                                               information and performance statistics on U.S.
                                                                               transit systems. Congress, Federal agencies, and
                                                                                                                                       EFFORTS
                                                                               transit industry stakeholders rely on NTD data to       To accomplish its mission and oversee States’ use
                                                                               make sound planning and investment decisions.           of Federal highway funds, FHWA has a workforce of
                                                                               FTA apportions over $6 billion annually in formula      about 3,000 staff distributed across Headquarters,
                                                                               grants to nearly 2,000 urban and rural transit          52 State Division Offices, and other smaller field
                                                                               agencies based on NTD data. Our objectives are to       activities. We are assessing FHWA’s processes and
                                                                               evaluate FTA’s oversight of NTD data to ensure that     procedures for assessing its workforce needs.
                                                                               submissions from grant recipients and beneficiaries     Specifically, we are (1) assessing FHWA’s processes
                                                                               of transit funds for the Urbanized Area Formula         for determining the needed number, composition,
                                                                               Program are complete, accurate, and timely.             and location of staff to achieve current and future
                                                                                                                                       agency goals and (2) evaluating how FHWA uses
                                                                                                                                       its workforce assessments when making staffing
                                                                                                                                       assignments and requests.




                                                                                                                                               Semiannual Report to Congress  |  69
In Progress

FMCSA’S IMPLEMENTATION                                FHWA’S IMPLEMENTATION OF
OF THE COMPLIANCE, SAFETY,                            PRIOR OIG BRIDGE PROGRAM
ACCOUNTABILITY PROGRAM                                RECOMMENDATIONS AND MAP-21
FMCSA’s Compliance, Safety, and Accountability
                                                      BRIDGE PROVISIONS
(CSA) Program is intended to improve commercial       The May 23, 2013, collapse of a portion of the
motor vehicle safety by focusing enforcement          Skagit River Bridge in Washington State brought
efforts on higher risk carriers. The centerpiece of   renewed attention to the safety and condition
CSA is the Safety Measurement System, which           of the Nation’s bridges. FHWA is responsible for
uses seven safety improvement categories to           overseeing States’ compliance with the National
evaluate carriers’ performance and assess their       Bridge Inspection Standards and with legislative
potential crash risks. At the request of the House    provisions for Federal bridge funding. Since 2006,
Transportation and Infrastructure Committee’s         OIG has issued three reports recommending
Subcommittee on Highways and Transit, we are          improvements to FHWA’s oversight of bridge
assessing whether FMCSA has (1) established           programs. At the request of the Ranking Member
adequate controls to ensure the quality of the        of the House Transportation and Infrastructure
data used to evaluate carrier performance and risk    Committee, we are assessing FHWA’s actions
and (2) effectively implemented CSA enforcement       in response to prior OIG bridge report
interventions.                                        recommendations and the bridge safety provisions
                                                      in MAP-21.




70  |  Work Planned and In Progress
In Progress

FHWA’S OVERSIGHT OF RECOVERY                              FHWA MAJOR PROJECTS
ACT PROJECT CLOSEOUTS                                     OVERSIGHT
Prompt closeout of ARRA projects allows unused            FHWA provides financial assistance and oversight
funds on completed projects with no pending               to States in delivering high-cost, complex highway
expenditures to be used on other projects still           and bridge projects, known as major projects.
under construction. Project closeout is also a critical   Federal law defines major projects as those with
step for an accurate final accounting of States’ use      an estimated cost of $500 million or more and
of all Federal-aid highway funds, including those         requires States to prepare finance plans and project
from ARRA. Our audit is determining whether               management plans. These plans are designed to
FHWA performs adequate oversight to ensure                ensure that major project costs and funding are
timely closeouts of completed ARRA highway                fully identified and that a well-designed project
projects and whether lessons learned from closing         management structure is in place to complete the
out ARRA highway projects can be used to improve          project as planned. Plans are intended to be living
closeouts of Federal-aid highway projects.                documents that are updated to reflect conditions
                                                          as the project progresses. Our audit is assessing
                                                          selected major projects to determine whether
                                                          FHWA oversight ensures States (1) prepare initial
                                                          finance plans and project management plans that
                                                          comply with FHWA guidance and (2) update plans
                                                          to address the actions needed to mitigate cost,
                                                          schedule, and funding risks.




                                                                  Semiannual Report to Congress  |  71
In Progress

NHTSA’S OVERSIGHT OF HIGHWAY                          DOT’S HURRICANE SANDY
SAFETY GRANTS                                         EMERGENCY RELIEF EFFORTS
The National Highway Traffic Safety Administration    In October 2012, Hurricane Sandy caused
(NHTSA) awards formula and incentive grants to        widespread damage in the mid-Atlantic and
States for conducting a wide range of highway         the northeastern United States, particularly
safety programs aimed at reducing fatalities,         to the area’s transportation infrastructure.
injuries, and economic losses resulting from motor    The Disaster Relief Appropriations Act of 2013
vehicle crashes. These programs promote safety        (DRAA) designated more than $13 billion for
belt use and discourage alcohol-impaired driving,     infrastructure investments across several modes
and other issues. We are evaluating whether           of transportation and funds for our office to
(1) NHTSA’s Headquarters and Region V ensured         oversee DOT’s administration of the relief funds.
consistent and accurate tracking and disposition      To comply with DRAA, we are initiating a series of
of grantee deficiencies identified during key         audits using a three-phase strategy. For the first
oversight reviews of States’ implementation of        phase, we are assessing FTA’s readiness, processes,
highway safety grant programs and (2) NHTSA’s         and procedures to meet DRAA’s legislative and
Region V verified that grantee expenditures           regulatory requirements, including FTA’s planning
comply with applicable laws, regulations, and grant   efforts to implement its new Emergency Relief
requirements.                                         Program. We will develop specific audit objectives
                                                      for the second and third phases as our work
                                                      progresses.




72  |  Work Planned and In Progress
Planned

DOT’S EFFORTS TO IMPLEMENT
MAP-21 PROJECT AND PROGRAM
DELIVERY REQUIREMENTS—PHASE 2
To continue meeting our mandate to assess the
Department’s implementation of MAP-21 project
and program delivery reforms, we will undertake
the next phase of our work. Specifically, we plan to
continue assessing the status of DOT’s reforms and
any other key issues that warrant a detailed review,
based on potential vulnerabilities that emerged
during our Phase 1 audit.




                                                       Semiannual Report to Congress  |  73
74  |  Work Planned and In Progress
                                           RAIL, MARITIME, HAZMAT TRANSPORT, AND
                                           ECONOMIC ANALYSIS

                                           In Progress

                                           FRA’S NATIONAL ENVIRONMENTAL                           FRA’S PROGRESS IN IMPLEMENTING
                                           PROTECTION ACT PROCESS                                 THE PROVISIONS OF THE
                                           The National Environmental Protection Act (NEPA)
                                                                                                  PASSENGER RAIL INVESTMENT AND
                                           requires FRA, as a Federal agency, to assess the       IMPROVEMENT ACT OF 2008
                                           environmental impacts of its proposed actions
                                           prior to making decisions. To increase transparency    PRIIA requires OIG to conduct two assessments of
                                           in FRA’s NEPA application process and review           FRA’s progress in implementing the act’s provisions
                                           concerns raised by stakeholders, OIG is assessing      within 5 years of enactment. In March 2012, we
                                           FRA’s policies, procedures, and guidance for           reported the results of our first assessment, which
                                           coordinating with FHWA and FTA and for ensuring        determined that FRA had completed 12 of its 29
                                           FRA staff and grantees meet NEPA requirements.         PRIIA responsibilities. The objectives for our second
                                                                                                  assessment are to (1) examine FRA’s progress in
                                           EFFECTS OF LIMITED COMPETITION                         implementing its remaining PRIIA responsibilities
                                                                                                  and (2) identify any major challenges to completing
                                           ON AIRLINE FLIGHT DELAYS AND                           implementation.
                                           CANCELLATIONS
                                                                                                  FRA’S OVERSIGHT OF THE RAILROAD
                                           The FAA Modernization and Reform Act of 2012
                                           directs OIG to assess the effect that limited air
                                                                                                  REHABILITATION AND IMPROVEMENT
                                           carrier service options on routes have on the          FINANCING PROGRAM
                                           frequency of delays and cancellations on such
                                           routes. To meet this requirement, OIG is conducting    The Railroad Rehabilitation and Improvement
                                           an analysis of the relationship between the            Financing (RRIF) Program—established in 1998 by
                                           presence or degree of competition on airline routes    the Transportation Equity Act for the 21st Century
                                           and the frequency of delays and cancellations.         and amended in 2005 by the Safe, Accountable,
“IMG_0230” BY ARGENT_G37S / CC BY-NC 2.0




                                           To conduct this assessment, we are developing          Flexible, Efficient Transportation Equity Act: A
                                           econometric models of delays and cancellations.        Legacy for Users—authorizes FRA to provide loans
                                           These models will allow us to separate the effects     and loan guarantees to railroads and other eligible
                                           of changes or limits in competition on cancellations   entities to finance the development of railroad
                                           and delays from the effects of other factors, such     infrastructure. We are conducting an audit of
                                           as weather and congestion.                             FRA’s administration of RRIF and the effectiveness
                                                                                                  of the program’s support to railroads and other
                                                                                                  eligible entities in achieving improvements to the




                                                                                                          Semiannual Report to Congress  |  75
In Progress

Nation’s rail infrastructure, as envisioned by the      THE U.S. MERCHANT MARINE
authorizing legislation. Our objectives are to (1)
assess FRA’s policies and procedures for evaluating
                                                        ACADEMY’S PROGRESS IN
and selecting RRIF applications and (2) identify        ADDRESSING SEXUAL HARASSMENT
factors that affect prospective applicants’ decisions   AND SEXUAL ASSAULT
to apply for RRIF credit assistance.
                                                        Less than half of the population of female
PHMSA’S PROGRESS IN IMPROVING                           upperclassmen, faculty, and staff at the U.S.
ITS SPECIAL PERMITS AND                                 Merchant Marine Academy (USMMA), which is
                                                        operated by MARAD, believe that senior leadership
APPROVALS PROGRAM                                       has created a climate that is intolerant of sexual
                                                        harassment and sexual assault, according to the
PHMSA, through its Special Permits and Approvals
                                                        Academy’s most recent publicly available survey
Program, grants approvals for activities allowed
                                                        conducted in the 2009-2010 academic year. At
under certain conditions identified in the Hazardous
                                                        the request of Ranking Member Elijah Cummings
Materials Regulations. In 2009 and 2010 we
                                                        and Congresswoman Jackie Speier of the House
reported on serious weaknesses in the program.
                                                        Committee on Oversight and Government Reform,
These weaknesses included how the Agency
                                                        we are conducting a comprehensive evaluation
(1) assessed applicants’ fitness or ability to comply
                                                        of USMMA’s efforts to create a climate in which
with special permit or approval conditions,
                                                        sexual harassment and sexual assault are not
(2) evaluated applicants’ proposed safety
                                                        tolerated. Accordingly, our objectives are to assess
measures, and (3) coordinated applications with
                                                        (1) USMMA’s implementation of its action plan
other Operating Administrations. Our objective
                                                        to prevent, respond to, and resolve instances of
is to determine the extent to which PHMSA has
                                                        sexual harassment and sexual assault and (2) DOT’s
addressed the program’s weaknesses. Specifically,
                                                        oversight of the Academy’s sexual harassment and
we are assessing the Agency’s implementation
                                                        sexual assault prevention, response, and resolution
of standard operating procedures for processing
                                                        efforts, including MARAD’s management of these
special permits and approvals, focusing on fitness,
                                                        efforts.
safety, and coordination.




76  |  Work Planned and In Progress
Planned

FRA’S MANAGEMENT OF                                    FRA’S OVERSIGHT AND
SAFETY DATA                                            MANAGEMENT OF AMTRAK
FRA collects accident and incident data from
                                                       GRANTS
railroads to inform its National Inspection Plan,      FRA provides annual grants in excess of $1 billion
which FRA uses the plan to target inspection           to subsidize Amtrak operations. The grant
resources and monitor how regions are meeting          agreements require Amtrak to meet certain
their inspection goals. FRA’s accident and incident    terms and conditions. We plan to review FRA’s
data must be accurate and comprehensive so             administration of these grants and determine
that the Agency can optimally deploy limited           whether FRA ensures that Amtrak complies with
safety inspection resources across the Nation’s        grant requirements. The objective of this audit will
140,000 miles of railroad track. We plan to evaluate   be to assess FRA’s use of performance metrics to
FRA’s (1) management of accident and incident          monitor the performance and success of Amtrak
data and (2) oversight of railroads’ processes for     projects.
collecting and reporting rail safety data to FRA for
its inspection program.




                                                               Semiannual Report to Congress  |  77
78  |  Work Planned and In Progress
                                             FINANCIAL AND INFORMATION TECHNOLOGY

                                             In Progress

                                             QUALITY CONTROL REVIEW OF                         FAA’S TRAFFIC FLOW
                                             STANDARDS FOR ATTESTATION                         MANAGEMENT SYSTEM
                                             ENGAGEMENTS REVIEW OF DOT’S                       FAA uses the Traffic Flow Management System
                                             ENTERPRISE SERVICES CENTER                        (TFMS) to manage air traffic flow, resolve inter-
                                                                                               air traffic facility issues, and address weather and
                                             OIG is performing a quality control review        other conditions that stress the National Airspace
                                             of the audit performed by an independent          System. Given its important role in maintaining
                                             public accounting firm to determine whether       efficient air traffic flow, weaknesses in TFMS’s
                                             (1) management’s description of the service       information security controls could result in air
                                             organization’s systems was fairly presented,      traffic delays and congestion. OIG is performing
                                             (2) controls were suitably designed, and          a review to assess TFMS’s information security
                                             (3) controls operated effectively from            controls, including whether FAA is identifying
                                             October 1, 2012, to June 30, 2013.                security risks and properly mitigating them.

                                             DOT’S INFORMATION SECURITY                        FAA’S AIR TRAFFIC CONTROL
                                             PROGRAM AND PRACTICES FOR                         SYSTEM COMMAND CENTER
                                             FISCAL YEAR 2013
                                                                                               Air Traffic Control System Command Center
                                             As mandated by the Federal Information Security   (ATCSCC) systems assist FAA in managing air traffic
                                             Management Act of 2002, OIG is performing         flow, resolving inter-air traffic facility issues, and
                                             its annual review of DOT’s information security   addressing weather and other conditions that
                                             program and practices to determine their          stress the National Airspace System. As such, it
                                             effectiveness.                                    is critical that FAA protect these systems and the
                                                                                               availability and integrity of its information. OIG is
“PANDUIT A” BY KEN FAGER / CC BY-NC-SA 2.0




                                                                                               performing a review to assess ATCSCC systems’
                                                                                               information security controls, including whether
                                                                                               FAA is identifying security risks and properly
                                                                                               mitigating them.




                                                                                                       Semiannual Report to Congress  |  79
In Progress

FAA’S AUTOMATIC DEPENDENT                              QUALITY CONTROL REVIEWS OF
SURVEILLANCE-BROADCAST SYSTEM                          SINGLE AUDITS ON DOT GRANTEES
FAA’s ADS-B is a satellite-based surveillance          OIG is performing a quality control review of the
technology that is expected to use aircraft avionics   audits performed by independent public accounting
and ground-based systems to provide information        firms on grant recipients’ use of DOT funds.
to pilots and controllers on aircraft location. As
required by the FAA Modernization Reform Act           DOT’S TRAVEL CARD PROGRAM
of 2012, OIG is conducting an assessment of how
security issues are addressed in ADS-B’s overall       DOT employees use travel cards to pay for
design and implementation.                             expenses related to official Government travel. In
                                                       fiscal year 2011, DOT employees made 1.2 million
QUALITY CONTROL REVIEW OF                              payments or charges totaling $172 million on their
                                                       travel cards. A prior audit on the use of travel
DOT’S FISCAL YEARS 2012 AND                            cards identified instances of employees abusing
2013 CONSOLIDATED FINANCIAL                            their travel cards by charging personal purchases,
STATEMENTS, AND FAA’S, SAINT                           withdrawing cash in excess of their needs, and not
                                                       paying their bills on time. We are assessing DOT’s
LAWRENCE SEAWAY DEVELOPMENT                            internal controls to determine their effectiveness in
CORPORATION’S, AND NTSB’S                              preventing and detecting travel charge misuse.
FINANCIAL STATEMENTS
OIG is performing a quality control review of the
audits performed by independent public accounting
firms. We will determine whether the audits were
performed in accordance with applicable auditing
standards.




80  |  Work Planned and In Progress
In Progress

DOT’S PRIVACY MANAGEMENT                             DOT CONTROLS OVER COLLECTION
PROGRAM                                              OF ACCOUNTS RECEIVABLE
As mandated by the Appropriations Act of 2008,       The Debt Collection Improvement Act requires
Section 742, OIG performs a periodic review          agencies to follow standardized procedures to
of DOT’s privacy management program to               ensure collection of delinquent non-tax public debt.
determine whether DOT (1) has an effective privacy   DOT’s fiscal years 2008 and 2009 public accounts
management program and (2) adequately protects       receivable increased from $85 million to $124
personally identifiable information.                 million. We are determining if DOT controls ensure
                                                     the timely collection of accounts receivable and
EARNED VALUE MANAGEMENT                              that delinquent accounts are subject to exhaustive
                                                     collection attempts.
OIG and the Government Accountability Office have
previously reviewed DOT’s use of earned value
management (EVM)—a tool to plan, execute, and
control IT project costs and schedules—and have
made recommendations to implement EVM. We are
assessing DOT’s (1) management and monitoring
of IT investments against approved performance
measurement baselines, (2) controls to ensure
the IT investment manager performs EVM as an
integral part of standard investment management
operations, (3) performance measurement
baselines for IT investments, and (4) methodology
for analyzing and using EVM data to assess and
monitor contract performance.




                                                             Semiannual Report to Congress  |  81
82  |  Work Planned and In Progress
                                          ACQUISITION AND PROCUREMENT

                                          In Progress

                                          DOT’S USE OF MANAGEMENT                               our review, DOT began taking corrective actions to
                                                                                                improve its S&D policies and procedures. However,
                                          SUPPORT SERVICES CONTRACTS                            recent work continues to show delays in DOT’s
                                                                                                S&D decision-making process, raising concerns
                                          As part of the White House’s Campaign to Cut
                                                                                                that improvements are not being sustained. The
                                          Waste, OMB announced its goal to reduce contract
                                                                                                objective of this audit is to determine if DOT
                                          spending on management support services by
                                                                                                suspends or debars prohibited parties and reports
                                          15 percent by the end of fiscal year 2012. For
                                                                                                S&D activities in Governmentwide tracking systems
                                          each of the fiscal years 2010 through 2012, DOT
                                                                                                timely and accurately.
                                          obligated over $1 billion in management support
                                          services contracts; over half involved high-risk
                                          contract types such as time-and-materials and cost-
                                                                                                FHWA’S EFFORTS TO ENSURE
                                          reimbursement contracts. These contract vehicles      PRICE REASONABLENESS PRIOR
                                          create cost risks and challenges because they are     TO AWARDING FIXED-PRICE
                                          complex to manage and oversee. Our objectives
                                          are to (1) identify DOT’s spending on management      CONTRACTS
                                          support services contracts for fiscal years 2010
                                                                                                As of March 30, 2013, FHWA has obligated
                                          through 2012 and (2) assess DOT’s efforts to meet
                                                                                                approximately $78 million on fixed-price contracts,
                                          OMB’s goal to reduce management support
                                                                                                which represents 91 percent of DOT’s total fiscal
                                          services contract spending and implement controls
                                                                                                year 2013 fixed-price contracting dollars. The FAR
                                          for awarding and managing management support
                                                                                                requires agencies to establish fair and reasonable
                                          services contracts.
                                                                                                prices prior to awarding contracts, which helps
                                                                                                ensure agencies receive the best value in their
                                          AUDIT FOLLOW-UP ON DOT’S                              acquisitions. Pre-award price reasonableness
                                          SUSPENSION AND DEBARMENT                              reviews are especially critical for fixed-price
                                          PROGRAM                                               contracts because the pre-award phase is the
                                                                                                only opportunity for the Government to mitigate
“FILES” BY S.C. ASHER / CC BY-NC-SA 2.0




                                          S&D actions are among the Government’s                the risk of paying unreasonably high prices. The
                                          strongest tools to deter unethical and unlawful       objective of this audit is to determine whether
                                          use of Federal funds. On January 7, 2010, we          FHWA’s policies, procedures, and practices meet
                                          reported that DOT’s S&D Program lacked sufficient     Federal and DOT requirements for ensuring price
                                          internal controls to prevent prohibited parties       reasonableness on fixed-price contracts.
                                          from obtaining contracts and grants. Following




                                                                                                        Semiannual Report to Congress  |  83
In Progress

PARTICIPATION IN FAA’S AIRPORT                          THE METROPOLITAN WASHINGTON
DISADVANTAGED BUSINESS                                  AIRPORTS AUTHORITY FTA
ENTERPRISE PROGRAM                                      DRAWDOWN
Under FAA’s Airport DBE Program, an airport             In 2009, FTA awarded the Metropolitan Washington
receiving Federal grants must establish an              Airports Authority (MWAA) $975 million in Federal
annual goal of what DBE participation would             funds for Phase 1 of the Dulles Corridor Metrorail
be in the absence of discrimination. To achieve         Project. MWAA, an independent public body,
its goal, an airport seeks to award contracts in        is responsible for the design and construction
procurement, construction, professional services,       of Phases 1 and 2 of the Dulles rail project. On
or concessions—to small businesses owned by             November 1, 2012, we reported on weaknesses
women or minorities. However, based on its              in MWAA’s management policies and processes,
concerns that discrimination against these small        including those that led to questionable
businesses continues, Congress directed OIG to          procurement practices. When conducting that
identify best practices for encouraging new airport     work, we identified potential financial management
DBE participation at large- and medium-sized            weaknesses related to MWAA’s FTA grants for
airports, including businesses owned by veterans.       Phase 1 of the Dulles rail project. As a result, we
The objectives of this audit are to determine (1) the   initiated a separate audit focused on MWAA’s
number of new and existing DBE firms hired at the       financial controls for the Dulles rail project. The
Nation’s large- and medium-sized airports in fiscal     objective of this audit is to determine whether
year 2012 and (2) the factors that led some airports    MWAA has controls in place to ensure that Dulles
to award more contracts to new DBE firms.               rail project Phase 1 expenses are used for eligible
                                                        expenses.




84  |  Work Planned and In Progress
Planned

DOT’S CONTRACT CLOSEOUT                                risks identified in our initial review. We also plan to
                                                       assess FTA’s oversight of the relief funds and the
PROCESSES                                              effectiveness of contracts awarded by recipients.
Effective contract closeout processes protect the
Government’s interests, minimize administrative
                                                       REVIEW OF MARAD’S ACQUISITION
costs, and free excess funds for possible use          FUNCTION AND CONTRACTING
elsewhere. In fiscal year 2011, DOT obligated          PRACTICES
approximately $5.7 billion on contracts for goods
and services—a significant pool of contracts that      Recent Administration initiatives called for Federal
may require careful contract closeout. We plan to      agencies to improve the effectiveness of their
determine whether DOT’s Office of the Secretary        acquisition programs and practices to achieve
(OST) and Operating Administrations are closing        better results from their contracts. DOT’s Strategic
contracts efficiently and effectively, including       Plan also calls for Operating Administrations
de-obligating excess funds on completed contracts.     to strengthen their IT, financial infrastructure,
                                                       and contract operations to support program
FTA’S OVERSIGHT OF CONTRACTS                           missions and maximize the Department’s return
RECIPIENTS AWARDED FOR                                 on investment. However, current OIG audits have
                                                       highlighted weaknesses in MARAD’s contracting
HURRICANE SANDY RELIEF—                                structure and operations. We plan to assess
PHASE 2                                                MARAD’s acquisition function, contracting
                                                       practices, and a selected sample of its acquisitions
During the second phase of our audit of FTA’s          to determine whether they best support its mission
acquisition practices for Hurricane Sandy Relief       and meet Federal acquisition criteria—such as
Funds, we will continue to assess FTA’s ability        Administration initiatives on competition and
to meet requirements in the Disaster Relief            minimizing high-risk contracts, as well as OMB’s
Appropriations Act of 2013 and provide effective       guidelines on conducting acquisition assessments.
oversight of Federal funds. Specifically, we plan to
evaluate how FTA has addressed the acquisition




                                                               Semiannual Report to Congress  |  85
86  |  Statistical Performance Data
                                                STATISTICAL PERFORMANCE DATA



                                                Summary of Performance
                                                April 1, 2013 – September 30, 2013


                                                Reports issued                                                                  76

                                                Recommendations issued                                                        215

                                                Congressional testimonies                                                        4

                                                Total financial recommendations                                    $279,301,000

                                                   That funds be put to better use                                 $124,000,000

                                                   Questioned costs                                                  $29,701,000

                                                   Unsupported costs                                               $125,600,000

                                                Fines (and special assessments), restitution, recoveries, and
                                                                                                                     $92,462,764
“CALCULATOR” BY JORGE FRANGANILLO / CC BY 2.0




                                                cost avoidance

                                                Indictments                                                                     42

                                                Convictions                                                                     33




                                                                                                Semiannual Report to Congress  |  87
Audits

Completed OIG Reports
April 1, 2013 – September 30, 2013
(dollars in thousands)a




                                      Number of      Number of Questioned         Unsupported Funds To Be Put
Category                                Reports Recommendations     Costs               Costs to Better Use
Internal Audits

Performance audits                           19              106     $24,298        $125,600         $124,000

Other OIG reports                             0                 0          $0             $0                  $0

Total for internal audit reports             19              106     $24,298       $125,600         $124,000

Grant Audits

Audits under Single Audit Act                57              109       $5,403             $0                  $0

Total for completed reports                  76              215     $29,701       $125,600         $124,000

a
 The dollars shown are the amounts reported to management.The actual amounts may change during final
resolution.

DOT programs and operations are primarily carried out by Department personnel and recipients of
Federal grants. As a result, our audits generally fall into one of three categories: (1) internal audits of
Departmental programs and operations, (2) audits of grant recipients, and (3) other OIG reports.




88  |  Statistical Performance Data
Audits

OIG Reports With Recommendations That
Questioned Costs
April 1, 2013 – September 30, 2013
(dollars in thousands)


                                                 Number of      Number of         Questioned      Unsupported
                                                   Reports Recommendations             Costs           Costsa
A      For which no management decision
       had been made by the start of the                 8                8              $8,594           $0
       reporting period
B      Which were issued during the
                                                        19               21         $155,301        $125,600
       reporting period

       Totals (A+B)                                     27               29        $163,895         $125,600

C      For which a management decision
       was made during the reporting                    19               19         $161,452        $125,600
       period

       (i) dollar value of disallowed costsa            15               15          $12,018              $0

       (ii) dollar value of costs not
                                                         5                5         $149,442        $125,600
            disallowedb
D      For which no management decision
       had been made by the end of the                   8               10              $2,444           $0
       reporting period

a
    Unsupported costs are also included in questioned costs.
b
    Includes reports and recommendations where costs were both allowed and disallowed.




                                                                   Semiannual Report to Congress  |  89
Audits

OIG Reports With Recommendations That Funds
Be Put to Better Use
April 1, 2013 – September 30, 2013
(dollars in thousands)


                                                                         Number of       Funds To Be Put to
                                           Number of Reports        Recommendations             Better Usea
A   For which no management decision
    had been made by the start of the                      1                         1               $426
    reporting period
B   Which were issued during the
                                                           1                         1           $124,000
    reporting period

    Totals (A+B)                                           2                         2          $124,426

C   For which a management decision
    was made during the reporting                          0                         0                  $0
    period
    (i) dollar value of recommendations
                                                           0a                    0a                     $0
    that were agreed to by management
    (ii) dollar value of recommendations
    that were not agreed to by                             0a                    0a                     $0
    management
D   For which no management decision
    had been made by the end of the                        2                         2          $124,426
    reporting period

Includes reports and recommendations where costs were both allowed and disallowed.
a




90  |  Statistical Performance Data
Audits

OIG Reports Recommending Changes for Safety,
Economy, or Efficiency
April 1, 2013 – September 30, 2013



                                                                              Number of        Number of
                                                                                Reports   Recommendations
A     For which no management decision had been made by the start of
                                                                                     35               67
      the reporting period
B     Which were issued during the reporting period                                  56              193

      Totals (A+B)                                                                  91               260

C     For which a management decision was made during the reporting
                                                                                     72              189
      perioda
D     For which no management decision had been made by the end of
                                                                                    32                71
      the reporting perioda

a
    Includes reports where management both made and did not make a decision on recommendations.




                                                                 Semiannual Report to Congress  |  91
Audits

Management Decisions Regarding OIG
Recommendations
April 1, 2013 – September 30, 2013
(dollars in thousands)


                                      Number of      Number of    Questioned   Unsupported Funds To Be Put
                                        Reports Recommendations        Costs        Costsa to Better Use
Unresolved as of 4/1/2013                   40              76        $8,594            $0           $426
Audits with findings during current
                                            64             215     $155,301       $125,600       $124,000
period
Total to be resolved                       104             291     $163,895      $125,600       $124,426
Management Decisions
Prior period auditsb                        30              51        $8,101            $0             $0
Current period auditsb                      51             157     $153,350       $125,600             $0
Total resolved                              81             208     $161,451      $125,600              $0
Age of Unresolved Auditsc
Less than 6 months old                      23              58        $1,950            $0       $124,000
6 months to 1 year                            1              1            $0            $0             $0
1 year to 18 months                           5              8            $0            $0             $0
18 months to 2 years                          2              4            $0            $0             $0
Over 2 years old                              5             12         $493             $0           $426
Unresolved as of 9/30/2013                  36              83       $2,443             $0      $124,426

a	
   Unsupported costs are also included in the figures shown as questioned costs.
b
  	Includes reports and recommendations where costs were both allowed and disallowed.
c
  	Considered unresolved if management decisions have not been made on all report recommendations.




92  |  Statistical Performance Data
Audits

Published OIG Reports
April 1, 2013 – September 30, 2013



DEPARTMENTWIDE
Internal Audits: Performance – 3 reports

DOT Does Not Fully Comply          The six Operating Administrations we reviewed do not fully comply
With Revised Federal Acquisition   with the revised FAR requirements related to acquisition planning and
Regulations on the Use and         documenting justifications; or consistently assess oversight risks, properly
Management of Cost-Reimbursement   designate oversight personnel, or verify that contractors’ accounting
Awards                             systems are adequate to provide valid and reliable cost data. The
ZA-2013-118                        Operating Administrations’ noncompliance is primarily attributable to
08/05/2013                         the Department’s lack of internal guidance for implementing these new
                                   requirements and lack of oversight needed to verify Departmentwide
                                   compliance.

Security Weaknesses in DOT’s       DOT’s COE provides the Department’s Operating Administrations with
Common Operating Environment       IT services, such as data storage, email and web application access, and
Expose Its Systems and Data to     database services, and a centralized environment for applications that
Compromise                         Operating Administrations use in support of their operations. Our report
FI-2013-123                        contains sensitive information exempt from public disclosure under the
09/10/2013                         Freedom of Information Act. A redacted version of our report is posted to
                                   our Web site.

DOT Does Not Fully Comply With     Not all DOT classification related policies and procedures are effective
Requirements of the Reducing       or comply with Federal requirements, including the National Archives
Over-Classification Act            and Records Administration’s ISOO regulation. Specifically, DOT did not
FI-2013-136                        conduct comprehensive self-inspections of spaces dedicated to storing
09/23/2013                         classified documents; the Department’s classified documents were not
                                   all correctly marked; DOT reports to ISOO are not accurate; and FAA’s
                                   Order on Safeguarding Classified National Security Information needs to
                                   be updated to comply with ISOO requirements.




                                                                  Semiannual Report to Congress  |  93
Audits

FEDERAL AVIATION ADMINISTRATION

Internal Audits: Performance – 8 reports

ARRA Lessons Learned:                  FAA’s oversight process was insufficient to prevent or detect more than
Opportunities Exist for FAA To         $1.4 million in ARRA payments for ineligible or insufficiently documented
Further Improve Its Oversight of       work. These improper payments occurred in part because FAA over-relies
Airport Grant Payments                 on grantees to ensure their payment requests are accurate and supported.
AV-2013-071                            In addition, FAA did not ensure that some airport expenditures fully met
04/18/2013                             ARRA and AIP requirements; $24,297,622 questioned.

FAA Continues To Face Challenges       FAA developed a risk assessment process to aid repair station inspectors
in Implementing a Risk-Based           in identifying areas of greatest concern. However, FAA’s oversight continues
Approach for Repair Station            to emphasize completing mandatory inspections instead of targeting
Oversight                              resources where they are needed based on risk, and foreign repair stations
AV-2013-073                            are not inspected using a risk-based system. In addition, FAA’s oversight of
05/01/2013                             foreign and domestic repair stations lacks effective, standardized processes
                                       for identifying deficiencies and verifying that they have been addressed.

FAA’s Acquisition Strategy for         FAA faces significant risks in developing and implementing the technical
Terminal Modernization Is at Risk      requirements for TAMR, its current terminal modernization effort.
for Cost Increases, Schedule Delays,   Specifically, FAA has yet to identify and finalize all the software and
and Performance Shortfalls             hardware requirements needed to successfully install STARS at the 11 large
AV-2013-097                            terminal facilities. In addition, the lack of a reliable schedule and cost
05/29/2013                             baseline for implementing STARS puts TAMR at risk of further schedule
                                       delays and cost growth.

FAA Lacks a Reliable Model for         While FAA introduced a new inspector staffing model in October 2009,
Determining the Number of Flight       it has not fully relied on the model’s results—due in part to continued
Standards Safety Inspectors It Needs   concerns with incomplete, inaccurate, and outdated data used in the model.
AV-2013-099                            These data deficiencies preclude FAA from reliably determining how many
06/20/2013                             inspectors it needs, where they are most needed, and whether the Agency’s
                                       approach is cost effective. As a result, inspector staffing processes continue
                                       to be driven by FAA’s regions, which can lead to subjective and inconsistent
                                       staffing decisions.




94  |  Statistical Performance Data
Audits

FAA’s Civil Aviation Registry Lacks      FAA uses the Registry to process and maintain ownership registrations on
Information Needed for Aviation          private and commercial aircraft and records on pilots’ licenses. However,
Safety and Security Measures             FAA lacks critical information on non-citizen aircraft owners and pilot
FI-2013-101                              certifications to ensure aviation safety. FAA has also not implemented the
06/27/2013                               necessary security controls over the Registry’s configuration and account
                                         management to protect personally identifiable information, or developed a
                                         recovery plan that meets Department requirements to ensure the system
                                         is recoverable after a disaster or other event.

FAA Has Made Progress Fielding           FAA has made considerable progress deploying ERAM and is now using the
ERAM, but Critical Work on               system at 16 sites at least part-time. However, as FAA deploys ERAM to the
Complex Sites and Key Capabilities       Nation’s busiest facilities, new software-related problems could impact the
Remains                                  program’s cost and schedule, and the Agency may need additional funds to
AV-2013-119                              complete the project.
08/15/2013

FAA’s Controller Scheduling              Air traffic controllers’ work schedules and the nature of air traffic control
Practices Can Impact Human               work can cause fatigue and negatively impact controller performance
Fatigue, Controller Performance,         and safety. Although FAA has revised some of its controller scheduling
and Agency Costs                         policies, it does not have metrics to determine whether its new policies will
AV-2013-120                              reduce controller fatigue. In addition, FAA’s new policies require a second
08/27/2013                               overnight controller at 30 facilities, which costs the Agency approximately
                                         $1.9 million per year—costs that could be offset by additional measures.
                                         Finally, we found that controllers are working schedules that do not always
                                         comply with FAA’s scheduling policies on the minimum amount of time
                                         required between shifts.

FAA Is Making Progress, but              FAA created an Independent Review Panel, which made 49 recommendations
Improvements in Its Air Traffic          that could significantly improve the controller hiring and training processes.
Controller Facility Training Are Still   However, almost 2 years after the panel issued its report, FAA has yet
Needed                                   to implement any of the recommendations or establish completion
AV-2013-121                              timeframes. In addition, FAA faces significant challenges in meeting its goal
08/27/2013                               to reduce training times, as the average training time for new controllers
                                         rose by 41 percent between fiscal years 2009 and 2012.




                                                                        Semiannual Report to Congress  |  95
Audits

Grant Audits: Audits of Grantee Under Single Audit Act – 3 reports

City of Atlanta, GA                 OIG recommends FAA improve grantee oversight.
SA-2013-102
07/12/2013

Village of Questa, NM               OIG recommends FAA improve grantee oversight; $49,133 questioned.
SA-2013-103
07/12/2013

State of Illinois (also listed under the Findings concerning the use of ARRA funds were identified. OIG
Federal Highway Administration, Federal recommends FAA, FHWA, FRA, and OST improve grantee oversight.
Railroad Administration, and Office of
the Secretary)
SA-2013-115
07/12/2013

FEDERAL HIGHWAY ADMINISTRATION
Internal Audits: Performance – 2 reports

Lessons Learned From ARRA           FHWA’s full oversight inspections did not routinely verify whether States
Could Improve the Federal Highway   detected instances of noncompliance with some Federal requirements. We
Administration’s Use of Full        projected that $125.6 million, or 12 percent, of ARRA progress payments
Oversight                           made to contractors in three States were unsupported. FHWA allows its
MH-2013-075                         Division Offices to determine the type, scope, and consistency of project
05/07/2013                          inspections and the extent of supervision when performing full oversight
                                    inspections. As a result, FHWA Division Offices rarely prepared written
                                    plans and did not fully document procedures performed or justify why
                                    they excluded some Federal requirements and related risk areas from
                                    review. Further, contrary to guidance, FHWA inspection reports had limited
                                    evidence of supervisory review.




96  |  Statistical Performance Data
Audits

FHWA Is Monitoring Unexpended           FHWA actions have been adequate to monitor remaining unexpended
Recovery Act Funds, but Some            ARRA funds that have been obligated. However, due to Federal restrictions
Funds May Remain Unused                 on the use of funds and FHWA policy on the uses of recovered ARRA
MH-2013-122                             funds, an estimated $356 million in ARRA highway funds could remain
09/04/2013                              unused when ARRA concludes in September 2015.

Grant Audits: Audits of Grantee Under Single Audit Act – 20 reports

State of Tennessee (also listed under   Findings concerning the use of ARRA funds were identified. OIG
the Federal Transit Administration)     recommends FHWA and FTA improve grantee oversight;
SA-2013-076                             $73,605 questioned.
05/09/2013

State of West Virginia                  Findings concerning the use of ARRA funds were identified. OIG
SA-2013-077                             recommends FHWA improve grantee oversight.
05/09/2013

State of Connecticut (also              Findings concerning the use of ARRA funds were identified. OIG
listed under the Federal Transit        recommends FHWA and FTA improve grantee oversight;
Administration)                         $534,070 questioned.
SA-2013-078
05/09/2013

State of Maine (also listed under the   Findings concerning the use of ARRA funds were identified. OIG
Office of the Secretary)                recommends FHWA and OST improve grantee oversight.
SA-2013-079
05/09/2013

State of New Hampshire                  Findings concerning the use of ARRA funds were identified. OIG
SA-2013-080                             recommends FHWA improve grantee oversight.
05/09/2013
	




                                                                     Semiannual Report to Congress  |  97
Audits

Commonwealth of Kentucky                Findings concerning the use of ARRA funds were identified. OIG
SA-2013-084                             recommends FHWA improve grantee oversight.
05/09/2013

State of Delaware (also listed under    Findings concerning the use of ARRA funds were identified. OIG
the Federal Transit Administration)     recommends FHWA and FTA improve grantee oversight
SA-2013-085
05/09/2013

State of New Jersey                     Findings concerning the use of ARRA funds were identified. OIG
SA-2013-086                             recommends FHWA improve grantee oversight.
05/09/2013

State of Texas (also listed under the   Findings concerning the use of ARRA funds were identified. OIG
Federal Transit Administration)         recommends FHWA and FTA improve grantee oversight.
SA-2013-087
05/09/2013

State of Wisconsin (also listed under   Findings concerning the use of ARRA funds were identified. OIG
the Federal Transit Administration)     recommends FHWA and FTA improve grantee oversight.
SA-2013-088
05/09/2013

State of Louisiana                      Findings concerning the use of ARRA funds were identified. OIG
SA-2013-089                             recommends FHWA improve grantee oversight; $83,575 questioned.
05/09/2013

State of Iowa                           A finding concerning the use of ARRA funds was identified. OIG
SA-2013-090                             recommends FHWA improve grantee oversight.
05/09/2013

State of Ohio (also listed under        Findings concerning the use of ARRA funds were identified. OIG
the National Highway Traffic Safety     recommends FHWA and NHTSA improve grantee oversight.
Administration)
SA-2013-092
05/20/2013




98  |  Statistical Performance Data
Audits

State of California                 Findings concerning the use of ARRA funds were identified. OIG
SA-2013-093                         recommends FHWA improve grantee oversight.
05/20/2013


Pueblo of Pojoaque, NM              Findings concerning the use of ARRA funds were identified. OIG
SA-2013-105                         recommends FHWA improve grantee oversight; $233,610 questioned.
07/12/2013


State of Rhode Island and           Findings concerning the use of ARRA funds were identified. OIG
Providence Plantations              recommends FHWA improve grantee oversight; $11,639 questioned.
SA-2013-106
07/12/2013

State of North Dakota (also listed     Findings concerning the use of ARRA funds were identified. OIG
under the Federal Motor Carrier Safety recommends FHWA, FMCSA, and FTA improve grantee oversight;
Administration and the Federal Transit $23,897 questioned.
Administration)
SA-2013-109
07/12/2013

Cheyenne River Sioux Tribe, South   Findings concerning the use of ARRA funds were identified. OIG
Dakota                              recommends FHWA improve grantee oversight; $199,333 questioned.
SA-2013-111
07/12/2013

Commonwealth of the Northern        OIG recommends FHWA improve grantee oversight; $1,072,192
Mariana Islands                     questioned.
SA-2013-114
07/12/2013

State of Illinois (also listed under the Findings concerning the use of ARRA funds were identified. OIG
Federal Aviation Administration, Federal recommends FHWA, FAA, FRA, and OST improve grantee oversight.
Railroad Administration, and Office of
the Secretary of Transportation)
SA-2013-115
07/12/2013




                                                                  Semiannual Report to Congress  |  99
Audits

FEDERAL MOTOR CARRIER SAFETY ADMINISTRATION
Grant Audits: Audits of Grantee Under Single Audit Act – 1 report

State of North Dakota (also              Findings concerning the use of ARRA funds were identified. OIG
listed under the Federal Highway         recommends FMCSA, FHWA, and FTA improve grantee oversight;
Administration and the Federal Transit   $23,897 questioned.
Administration)
SA-2013-109
07/12/2013

FEDERAL RAILROAD ADMINISTRATION
Internal Audits: Performance – 2 reports

FRA Is Nearing Completion of             FRA has issued 8 of the 17 Rail Safety Improvement Act-required rules and
Rules Required by the Rail Safety        has made progress on finalizing the remaining 9. However, weaknesses in
Improvement Act, But Needs To            FRA’s planning for its rulemaking work delayed rule issuance. FRA also did
Improve Oversight                        not provide its oversight staff with the guidance, training, and supervision
CR-2013-070                              required to oversee compliance with certain rules.
04/17/2013

Quality Control Review of Audited        Rogers & Company PLLC issued a clean, unqualified audit opinion on
Financial Statements for Fiscal          USRC’s financial statements. Our quality control review disclosed no
Years 2011 and 2010 Union Station        instances in which Rodgers & Company PLLC did not comply in all material
Redevelopment Corporation                respects with auditing standards.
QC-2013-100
06/20/2013




100  |  Statistical Performance Data
Audits

Grant Audits: Audits of Grantee Under Single Audit Act – 2 reports

State of Vermont                     A finding concerning the use of ARRA funds was identified. OIG
SA-2013-081                          recommends FRA improve grantee oversight.
05/09/2013

State of Illinois (also listed under     Findings concerning the use of the ARRA funds were identified. OIG
Federal Aviation Administration, Federal recommends FRA, FAA, FHWA, and OST improve grantee oversight.
Highway Administration, and Office of
the Secretary of Transportation)
SA-2013-115
07/12/2013

FEDERAL TRANSIT ADMINISTRATION
Internal Audits: Performance – 1 report

Lessons Learned From the East Side   The Metropolitan Transit Authority (MTA) safeguarded the ESA materials
Access Project Can Enhance FTA’s     purchased with ARRA funds and met ARRA certification requirements for
Oversight of MTA’s Reporting on      the ESA ARRA New Starts funds. However, MTA’s Section 1512 reports
Remaining ARRA Grants                omitted required data that FTA quality reviews did not detect. Specifically,
MH-2013-098                          MTA’s final report did not include required vendor payment information
06/12/2013                           for over $19 million (nearly 10 percent) of the ESA ARRA grant funding.
                                     Because FTA’s data quality reviews did not identify these omissions in
                                     MTA’s required Section 1512 quarterly reports, it underreported vendor
                                     payment data to the public.




                                                                   Semiannual Report to Congress  |  101
Audits

Grant Audits: Audits of Grantee Under Single Audit Act – 16 reports

State of Tennessee (also listed under   Findings concerning the use of ARRA funds were identified. OIG
the Federal Highway Administration)     recommends FTA and FHWA improve grantee oversight;
SA-2013-076                             $73,605 questioned.
05/09/2013

State of Connecticut (also              Findings concerning the use of ARRA funds were identified. OIG
listed under the Federal Highway        recommends FTA and FHWA improve grantee oversight;
Administration)                         $534,070 questioned.
SA-2013-078
05/09/2013

Massachusetts Bay Transportation        A finding concerning the use of ARRA funds was identified. OIG
Authority                               recommends FTA improve grantee oversight.
SA-2013-082
05/09/2013

State of Delaware (also listed under    Findings concerning the use of ARRA funds were identified. OIG
the Federal Highway Administration)     recommends FTA and FHWA improve grantee oversight.
SA-2013-085
05/09/2013

State of Texas (also listed under the   Findings concerning the use of ARRA funds were identified. OIG
Federal Highway Administration)         recommends FTA and FHWA improve grantee oversight.
SA-2013-087
05/09/2013

State of Wisconsin (also listed under   Findings concerning the use of ARRA funds were identified. OIG
the Federal Highway Administration)     recommends FTA and FHWA improve grantee oversight.
SA-2013-088
05/09/2013

Puerto Metropolitan Bus Authority       A finding concerning the use of ARRA funds was identified. OIG
SA-2013-091                             recommends FTA improve grantee oversight.
05/20/2013

City of Manteca, CA                     A finding concerning the use of ARRA funds was identified. OIG
SA-2013-094                             recommends FTA improve grantee oversight.
05/20/2013




102  |  Statistical Performance Data
Audits

State of Washington                    A finding concerning the use of ARRA funds was identified. OIG
SA-2013-095                            recommends FTA improve grantee oversight.
05/20/2013

City of Tucson, AZ                     A finding concerning the use of ARRA funds was identified. OIG
SA-2013-107                            recommends FTA improve grantee oversight.
07/12/2013

Transportation District Commission A finding concerning the use of ARRA funds was identified. OIG
of Hampton Roads,VA                recommends FTA improve grantee oversight; $1,135,369 questioned.
SA-2013-108
07/12/2013

State of North Dakota (also            Findings concerning the use of ARRA funds were identified. OIG
listed under the Federal Highway       recommends FTA, FHWA, and FMCSA and improve grantee oversight;
Administration and the Federal Motor   $23,897 questioned.
Carrier Safety Administration)
SA-2013-109
07/12/2013

Miami-Dade Transit, FL                 A finding concerning the use of ARRA funds was identified. OIG
SA-2013-110                            recommends FTA improve grantee oversight.
07/12/2013

Metropolitan Transit Authority of      OIG recommends FTA improve grantee oversight.
Harris County, TX
SA-2013-112
07/12/2013

Hillsborough Transit Authority, FL     A finding concerning the use of ARRA funds was identified. OIG
SA-2013-113                            recommends FTA improve grantee oversight.
07/12/2013

Quality Control Review on              RubinBrown LLP issued a clean, unqualified audit opinion on DOT’s major
the Single Audit of Regional           grant programs. Our quality control review disclosed no instances in which
Transportation District, CO            RubinBrown LLC did not comply in all material respects with auditing
QC-2013-142                            standards.
09/30/2013




                                                                   Semiannual Report to Congress  |  103
Audits

MARITIME ADMINISTRATION
Internal Audits: Performance – 1 report

MARAD Has Taken Steps To               The Port of Anchorage project had significant management and contracting
Develop a Port Infrastructure          problems stemming from MARAD’s inadequate planning, lack of reliable
Development Program but Is             cost estimates, and noncompliance with Federal contracting requirements
Challenged in Managing Its Current     when awarding and administering the port contracts. The Port of
Port Projects                          Anchorage project’s cost estimate grew over four and a half times from
CR-2013-117                            $211 million to $1 billion, with scheduled completion slipping 8 years.
08/02/2013

NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION
Grant Audits: Audits of Grantee Under Single Audit Act – 2 reports

State of Alaska                        OIG recommends NHTSA improve grantee oversight; $85,528 questioned.
SA-2013-083
05/09/2013

State of Ohio (also listed under the   Findings concerning the use of ARRA funds were identified. OIG
Federal Highway Administration)        recommends NHTSA and FHWA improve grantee oversight.
SA-2013-092
05/20/2013

OFFICE OF THE SECRETARY
Internal Audits: Performance – 2 reports

Actions Needed To Enforce              While DOT had designed adequate controls to prevent and detect
Controls Over Purchase Cards           erroneous purchases in the purchase card program, cardholders and
FI-2013-116                            approving officials did not always adhere to these controls. Based on
07/25/2013                             statistical sampling, we estimate that $58 million of $277 million in
                                       purchases that DOT cardholders made between October 1, 2009, and
                                       March 31, 2011, did not comply with the prescribed controls.




104  |  Statistical Performance Data
Audits

Weaknesses in the Department’s       The Department has not issued comprehensive, standardized DBE
Disadvantaged Business Enterprise    guidance; provided sufficient training to the State and local agencies that
Program Limit Achievement of Its     implement the program; or established program accountability. Weak
Objectives                           DBE certification and contract oversight practices at States further
ZA-2013-072                          increase the risk that ineligible firms will be certified as DBEs. Finally, the
04/23/2013                           Department has limited success in achieving its program objective to
                                     develop DBE firms to succeed in the marketplace, as we found that most
                                     certified DBEs never receive work on Federal projects. We estimate that
                                     $124 million of the $4.1 billion in DBE funds distributed across 52 U.S.
                                     States and territories in fiscal year 2009 could have been put to better
                                     use if DOT and its recipients had implemented better internal controls
                                     over their certification processes.

Grant Audits: Audits of Grantee Under Single Audit Act – 3 reports

Kansas City Area Transportation     A finding concerning the use of ARRA funds was identified. OIG
Authority                           recommends OST improve grantee oversight.
SA-2013-096
05/20/2013

Port of Oakland, CA                 A finding concerning the use of ARRA funds was identified. OIG
SA-2013-104                         recommends OST improve grantee oversight.
07/12/2013

State of Illinois (also listed under the Findings concerning the use of ARRA funds were identified. OIG
Federal Aviation Administration, Federal recommends OST, FAA, FHWA, and FRA improve grantee oversight.
Highway Administration, and Federal
Railroad Administration)
SA-2013-115
07/12/2013




                                                                   Semiannual Report to Congress  |  105
Audits

OIG Congressional Testimonies
April 1, 2013 – September 30, 2013



FAA’s Progress and Challenges in Advancing Safety Oversight     Before the Committee on Commerce, Science,
Initiatives                                                     and Transportation
CC-2013-013                                                     United States Senate
4/16/2013

The Federal Aviation Administration’s Fiscal Year 2014 Budget   Before the Committee on Appropriations
Request: Key Issues Facing the Agency                           Subcommittee on Transportation, Housing, and
CC-2013-016                                                     Urban Development
4/18/2013                                                       United States Senate

FAA’s Progress and Challenges in Advancing the Next             Before of the Transportation and Infrastructure
Generation Air Transportation System                            Committee, Subcommittee on Aviation
CC-2013-028                                                     United States House of Representatives
7/17/2013

Status of DOT’s Actions To Address Subtitle C of the Moving     Before the Committee on Environment and
Ahead for Progress in the 21st Century Act                      Public Works
CC-2013-031                                                     United States Senate
9/18/2013




106  |  Statistical Performance Data
Audits

Unresolved Recommendations Over
6 Months Old
April 1, 2013 – September 30, 2013


Cited in Semiannual Report for April 1, 2010 – September 30, 2010
Information Security and Privacy Controls Over the Airmen Medical Support Systems            6/18/2010
(FI-2010-069)

Cited in Semiannual Report for October 1, 2010 – March 31, 2011
FAA Did Not Ensure Revenue Was Maximized at Denver International Airport
                                                                                             2/28/2011
(AV-2011-057)

New York Flight Delays Have Three Main Causes, but More Work Is Needed To Understand
                                                                                            10/28/2010
Their Nationwide Effect (AV-2011-007)

FAA Faces Significant Risks in Implementing the Automatic Dependent Surveillance–
                                                                                            10/12/2010
Broadcast Program and Realizing Benefits (AV-2011-002)

Cited in Semiannual Report for April 1, 2011 – September 30, 2011
More Rigorous Oversight Is Needed To Ensure Venice Municipal Airport Land Sales and          9/29/2011
Leases Are Used Appropriately (AV-2011-180)

Cited in Semiannual Report for October 1, 2011 – March 31, 2012
New Approaches Are Needed To Strengthen FAA Oversight of Air Carrier Training
                                                                                            12/20/2011
Programs and Pilot Performance (AV-2012-027)

State of Illinois (SA-2012-011)                                                             11/23/2011




                                                                Semiannual Report to Congress  |  107
Audits

Cited in Semiannual Report for April 1, 2012 – September 30, 2012
Weaknesses in Program and Contract Management Contribute to ERAM Delays and Put
                                                                                            9/13/2012
Other Nextgen Initiatives at Risk (AV-2012-179)

FAA Has Not Effecitvely Implemented Its Wildlife Hazard Mitigation Program
                                                                                            8/22/2012
(AV-2012-170)

Challenges With Implementing Near-Term Nextgen Capabilities at Congested Airports
                                                                                             8/1/2012
Could Delay Benefits (AV-2012-167)

Long-Term Success of ATSAP Will Require Improvements in Oversight, Accountability, and
                                                                                            7/19/2012
Transparency (AV-2012-152)

Status of Transformational Programs and Risks to Achieving Nextgen Goals (AV-2012-094)      4/23/2012

Cited in Semiannual Report for October 1, 2012 – March 31, 2013
Follow-Up Review of FAA and Industry Efforts To Enhance Airline Safety in Response to the   1/31/2013
Colgan Air Accident (AV-2013-037)




108  |  Statistical Performance Data
Investigations

Financial Impact
April 1, 2013 – September 30, 2013


Type                                                          Amount
Fines (and special assessments)                            $42,960,502
Restitution                                                $22,418,330
Recoveries                                                 $18,328,957
Cost avoidance                                               $2,560,975
Forfeited                                                    $6,194,000
Total                                                     $92,462,764




                                     Semiannual Report to Congress  |  109
Investigations

OIG Hotline Contacts
April 1, 2013 – September 30, 2013



Method of Contact                      Number
Email                                    2,210

Fax                                        14

Letters                                    72

Web                                       525

Telephone                                 457

Walk-ins                                    3

Total                                    3,281




110  |  Statistical Performance Data
Investigations

Judicial and Administrative Actions
April 1, 2013 – September 30, 2013


Type of Action                                             Number
Indictments                                                       42
Convictions                                                       33
Years incarceration                                               32
Years supervised release                                          24
Years probation                                                  33.5
Hours community service                                        1,035
Business debarment                                                  5
Business suspension                                                 9
Individual debarment                                              10
Individual suspension                                             16
Employee resigned/retired during investigation                      3
Employee suspension                                                 2
Certification/License/Permit revoked/terminated                     1
Corrective action taken                                             4
Enforcement action taken                                            3
Termination of contract                                             1




                                                  Semiannual Report to Congress  |  111
Investigations

Investigative Workload and Judicial Referrals
April 1, 2013 – September 30, 2013


Investigative Workload

Current investigations                 347

Investigations opened                   70

Investigations closed                   75



Judicial Referrals

Referred for criminal prosecution      131

Accepted for criminal prosecution       87

Declined for criminal prosecution       63

Referred for civil prosecution           9

Accepted for civil prosecution           4

Declined for civil prosecution           1




112  |  Statistical Performance Data
Investigations

Profile of All Pending Investigations by
Case Type
As of September 30, 2013

                      Number of Aviation              Motor Transportation   Grant Procurement Workforce Employee
                     Investigations Safety   Hazmat   Carrier   Safety       Fraud    Fraud    Protection Integrity   Othera
FAA                      80         44         7        0          0         15          0         1         12         1
FHWA                    110          0         0        0          0         98          1         11         0         0
FMCSA                    65          0         9       32          1          0          0         21         2         0
FRA                      4           0         0        0          0          3          0         0          1         0
FTA                      37          0         0        0          0         30          1         4          2         0
MARAD                    4           0         0        0          0          0          3         0          1         0
NHTSA                    10          0         0        0          3          7          0         0          0         0
OIG                      1           0         0        0          0          0          0         0          1         0
OST                      3           0         0        0          1          0          0         2          0         0
Other OIG                1           0         0        0          0          0          0         0          0         1
PHMSA                    29          0        25        0          0          0          0         0          4         0
RITA                     2           0         0        0          0          1          1         0          0         0
Departmentwide           1           0         0        0          0          0          1         0          0         0
Totals                  347         44        41       32          5         154        7         39         23         2
Percentage             100%        13%       12%       9%         1%         44%       2%        11%         7%        1%

a	
     Includes computer intrusion cases




                                                                         Semiannual Report to Congress  |  113
114  |  Peer Review
                                            PEER REVIEW



                                            During this reporting period, OIG’s Office of Audits   concluded that the system of internal safeguards
                                            was the subject of a Council of the Inspectors         and management procedures for our investigative
                                            General on Integrity and Efficiency (CIGIE) peer       function was in compliance with quality standards
                                            review by the U.S. Department of Defense (DOD)         established by CIGIE and Attorney General
                                            OIG. DOD OIG concluded that the system of quality      guidelines, and no recommendations were made.
                                            control for our audit function has been suitably       The report was released on August 30, 2012.
                                            designed and complied with to provide reasonable
                                            assurance of performing and reporting in               For the reports of the peer reviews conducted
                                            conformity with applicable professional standards      on our office, go to http://www.oig.dot.gov/peer-
                                            in all material respects. Accordingly, DOD OIG         review.
                                            provided a “pass” rating, and no recommendations       OIG is currently conducting a CIGIE peer review of
                                            were made. The report was released on                  the U.S. Department of Interior OIG’s investigative
                                            August 8, 2013.                                        function. We expect to release a final report in
                                            OIG’s Office of Investigations was the subject of      December 2013.
                                            a CIGIE peer review during fiscal year 2012 by the
                                            U.S. Department of the Treasury OIG. Treasury OIG
“SPIRAL BOUND” BY DOMIRIEL / CC BY-NC 2.0




                                                                                                          Semiannual Report to Congress  |  115
Inspector General
Deputy Inspector General
•	 Chief of Staff
•	 Director, Quality Assurance Reviews and Internal Affairs



Principal Assistant                    Principal Assistant               Assistant Inspector   Assistant Inspector
Inspector General                      Inspector General for             General for           General for Legal,
for Investigations                     Auditing and Evaluation           Administration        Legislative, and
                                                                                               External Affairs
Deputy Assistant                       Assistant Inspector General for
Inspector General for                  Aviation Audits
Investigations
                                       •	 Deputy Assistant Inspector
                                          General for Aviation Audits


                                       Assistant Inspector General
                                       for Financial and Information
                                       Technology Audits

                                       Assistant Inspector General for
                                       Highway and Transit Audits
                                       •	 Deputy Assistant Inspector
                                          for Highway and Transit
                                          Audits


                                       Assistant Inspector General
                                       for Rail, Maritime, and Hazmat
                                       Transport Audits, and Economic
                                       Analysis


                                       Assistant Inspector General for
                                       Acquisition and Procurement
                                       Audits




116  |  Mission and Organization
MISSION AND ORGANIZATION



The Office of Inspector General for the Department          Maritime, Hazmat Transport, and Economic
of Transportation was created by Congress through           Analysis; Financial and Information Technology;
the Inspector General Act of 1978 (Public Law 95-           and Acquisition and Procurement.
452). The act sets several goals for OIG:
                                                         •	 The Office of the Principal Assistant Inspector
•	 To conduct or supervise objective audits and             General for Investigations supervises and
   investigations of the Department’s programs and          conducts OIG investigative activities related
   operations;                                              to DOT programs and operations through its
                                                            headquarters and seven major regional offices.
•	 To promote economy, effectiveness, and                   The headquarters office conducts nationwide
   efficiency within the Department;                        special investigations and analyses as well as
•	 To prevent and detect fraud, waste, and abuse in         manages the OIG Hotline Complaint Center and
   the Department’s programs;                               activities generated by complaints.

•	 To review existing and proposed laws or               •	 The Office of the Assistant Inspector General for
   regulations affecting the Department and make            Legal, Legislative, and External Affairs provides
   recommendations about them;                              a full range of professional legal services and
                                                            advice, facilitates communications with Congress,
•	 To keep the Secretary of Transportation and              and manages public and external affairs.
   Congress fully informed about problems in
   Departmental programs and operations.                 •	 The Office of the Assistant Inspector General for
                                                            Administration is divided into four suboffices:
The Inspector General is committed to fulfilling its        the Office of Procurement and Administrative
statutory responsibilities and assisting members of         Services, the Office of Budget and Financial
Congress, the Secretary, senior Department officials,       Management, the Office of Human Resources,
and the general public in achieving a safe, efficient,      and the Office of Information Technology
and effective transportation system. OIG’s audits and       Management.
investigations offices and three support offices work
together to fulfill its mission:                         •	 The Office of Quality Assurance Reviews and
                                                            Internal Affairs, under the direction of the
•	 The Office of the Principal Assistant Inspector          Deputy Inspector General, ensures that internal
   General for Auditing and Evaluation supervises           operations and functions are performed
   and conducts all audit activities related to             objectively and in an efficient and effective
   DOT programs and operations through its five             manner.
   suboffices: Aviation; Highway and Transit; Rail,




                                                                Semiannual Report to Congress  |  117
CONTACTS

INSPECTOR GENERAL
Calvin L. Scovel III…………………………………………………………………………………… (202) 366-1959

DEPUTY INSPECTOR GENERAL
Ann Calvaresi Barr…………………………………………………………………………………… (202) 366-6767

PRINCIPAL ASSISTANT INSPECTOR GENERAL FOR INVESTIGATIONS
Timothy Barry………………………………………………………………………………………… (202) 366-1967

PRINCIPAL ASSISTANT INSPECTOR GENERAL FOR AUDITING AND EVALUATION
Lou Dixon……………………………………………………………………………………………… (202) 366-1427

ASSISTANT INSPECTOR GENERAL FOR LEGAL, LEGISLATIVE, AND EXTERNAL AFFAIRS
Brian A. Dettelbach…………………………………………………………………………………… (202) 366-8751

ASSISTANT INSPECTOR GENERAL FOR ADMINISTRATION
Susan Dailey………………………………………………………………………………………… (202) 366-1748

CHIEF OF STAFF
Madeline Chulumovich………………………………………………………………………………… (202) 366-6767

DEPUTY ASSISTANT INSPECTOR GENERAL FOR INVESTIGATIONS
William Owens……………………………………………………………………………………… (202) 366-7100

ASSISTANT INSPECTOR GENERAL FOR AVIATION AUDITS
Jeffrey Guzzetti……………………………………………………………………………………… (202) 366-0500

DEPUTY ASSISTANT INSPECTOR GENERAL FOR AVIATION AUDITS
Matt Hampton………………………………………………………………………………………… (202) 366-1987

ASSISTANT INSPECTOR GENERAL FOR HIGHWAY AND TRANSIT AUDITS
Joe Comé……………………………………………………………………………………………… (202) 366-5630

DEPUTY ASSISTANT INSPECTOR GENERAL FOR HIGHWAY AND TRANSIT AUDITS
Thomas Yatsco………………………………………………………………………………………… (202) 366-5630

ASSISTANT INSPECTOR GENERAL FOR RAIL, MARITIME, AND HAZMAT TRANSPORT AUDITS,
AND ECONOMIC ANALYSIS
Mitchell Behm………………………………………………………………………………………… (202) 366-9970

ASSISTANT INSPECTOR GENERAL FOR FINANCIAL AND INFORMATION TECHNOLOGY AUDITS
Louis King……………………………………………………………………………………………… (202) 366-1407

ASSISTANT INSPECTOR GENERAL FOR ACQUISITION AND PROCUREMENT AUDITS
Mary Kay Langan-Feirson…………………………………………………………………………… (202) 366-5225




118  |  Contacts
To report fraud, waste, or
abuse at the U.S. Department
of Transportation, please
contact the OIG Hotline:



1-800-424-9071
hotline@oig.dot.gov
